<html>
<title> - H.R. 1367, ATLANTIC HIGHLY MIGRATORY SPECIES CONSERVATION ACT OF 2001</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
 H.R. 1367, ATLANTIC HIGHLY MIGRATORY SPECIES CONSERVATION ACT OF 2001
=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION
                               __________

                             August 2, 2001
                               __________

                           Serial No. 107-57
                               __________

           Printed for the use of the Committee on Resources








 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                    U.S. GOVERNMENT PRINTING OFFICE
74-368                       WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina
                                 ------                                















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on August 2, 2001...................................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland, Prepared statement of...............     5
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................     1
        Prepared statement of....................................     2
    Underwood, Hon. Robert A., a Delegate to Congress from Guam..     4
        Prepared statement of....................................     4

Statement of Witnesses:
    Donofrio, James A., Executive Director, Recreational Fishing 
      Alliance...................................................    55
        Prepared statement of....................................    57
        Letter from Betsy Larsen, Larsen's Fish Market, Inc., 
          submitted for the record...............................    77
    Hayes, Robert G., General Counsel, Coastal Conservation 
      Association................................................    15
        Prepared statement of....................................    16
    Hobbs, J. Timothy, Jr., Fisheries Project Director, National 
      Coalition for Marine Conservation..........................    64
        Prepared statement of....................................    65
    Hogarth, Dr. William T., Acting Assistant Administrator for 
      Fisheries, National Marine Fisheries Service, U.S. 
      Department of Commerce.....................................     5
        Prepared statement of....................................     7
    Panacek, Ernest, President, Blue Water Fishermen's 
      Association, and General Manager, Viking Village, Inc......    19
        Prepared statement of....................................    23
    Scott, Dr. Gerald P., Director, Sustainable Fisheries 
      Division, National Marine Fisheries Service, U.S. 
      Department of Commerce.....................................    34
        Prepared statement of....................................    36









      HEARING ON H.R. 1367, THE ATLANTIC HIGHLY MIGRATORY SPECIES 
                        CONSERVATION ACT OF 2001

                              ----------                              


                        Thursday, August 2, 2001

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to other business, at 10:47 
a.m., in Room 1334, Longworth House Office Building, Mr. Jim 
Saxton presiding.

  STATEMENT OF THE HONORABLE JIM SAXTON, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Saxton. [Presiding.] Thank you all for being here. And 
we needed to get that out of the way, and we appreciate very 
much your patience.
    First of all, let me say that I have an opening statement 
that I ask unanimous consent be placed in the record in its 
entirety.
    Inasmuch as we have a group of auspicious--I didn't say 
suspicious--auspicious witnesses, and I want to welcome you all 
here this morning. I will just say, by way of introduction, 
that this is certainly not a new topic to anyone in the room; 
that is, the matter of highly migratory species conservation 
and the interaction of various gear types in this fishery and 
the effect of various gear types on this fishery.
    As everyone here knows, we have had long and very 
interesting discussions and sometimes other accompanying 
activities that this subject brings about. Certainly, it is a 
subject that has its share of controversy associated with it.
    But the fact of the matter is that there are good reasons 
for us to move forward to try to understand the conservation 
measures that have been put in place to date and to understand 
the need which may exist for further conservation measures.
    I, as a matter of fact, have introduced one bill, which is, 
I believe, H.R. 1367. The bottom line is that this bill I hope 
will continue to be a beacon of light to shine on this subject.
    Not everybody agrees with the provisions of it. Some people 
agree with some of them. Some people agree with none of them. 
But it serves as a focal point for us to begin again, or 
continue, I guess I should say, the discussions on this issue.
    One fact that was pointed out to me here recently in the 
2001 stock assessment for fishery evaluation of Atlantic highly 
migratory species; I will just read this one paragraph:
    The 2000 assessment for white marlin was quite pessimistic. 
The total Atlantic stock is estimated to be less than 15 
percent of the biomass, which is considered to be the 
sustainable level.
    Fifteen percent, it is down that low.
    In 1996, the figures were that it was down 23 percent. 
These figures show that white marlin are down to 15 percent of 
what might be considered a healthy level. And current fishing 
mortality is estimated to be seven times higher than the 
sustainable level.
    Given that the stock is severely depressed, the report 
concluded that ICCAT should take steps to reduce the catch of 
white marlin as much as possible.
    This is what this subject is all about. And, again, I look 
forward to hearing the testimony of the witnesses this morning.
    [The prepared statement of Mr. Saxton follows:]

 Statement of Honorable Jim Saxton, A Representative in Congress from 
                        the State of New Jersey

    Good morning Mr. Chairman and members of the Subcommittee. Thank 
you to the witnesses for joining us today. I appreciate you taking the 
time out of your schedules to be here.
    Thank you for continuing the process to tackle this very important, 
yet controversial issue. I worked very hard, with a number of you last 
year, to get a bill enacted into law, which did not happen, much to my 
frustration and disappointment. I am pleased you have agreed to 
continue to work with me to find a compromise solution to this 
extremely difficult and complicated problem.
    I am back to attack this issue again because w e still have a 
fundamental problem. And I introduced HR 1367 to keep the spotlight on 
it. The bottom line is longline gear is a very damaging destructive way 
of fishing and it needs to come out of the water. My bill, through 
closure and a buyout does just that. It also provides a means for 
taking a hard look at what is happening with these species and what we 
can and should do to prevent the populations from plummeting even 
further, and begin the process of rebuilding the stocks. It's been done 
w ith other species and it can and should be done with these species.
    I would like to state, with regard to the Administration's 
position, Dr. Hogarth, in reading your testimony, I am more than 
willing to work with you on technical changes to my bill, but there are 
5 very important components which I feel strongly about. First, It is 
important to compensate those longline fishermen who have been affected 
by the NMFS closure, by purchasing their permits thereby permanently 
reducing .the longline effort in the US. Second, the establishment of 
two time-area closures and offering a buy-out to those affected, to 
reduce by catch. Third, the research program in my, bill will help to 
give us a better understanding of bycatch in the US as a result of this 
fishery. Fourth, in an effort to reduce bycatch in longlining, to have 
the fishermen transfer their quota to another gear. And fifth, it is 
important these fishemen not reenter the longline fishery.
    Dr. Hogarth, with regard to the Administration's concerns to obtain 
appropriations, you made a valid point last year which is still a valid 
point today. We are talking about a substantial amount of money, but it 
is my commitment to work with the Appropriators to secure this funding. 
Priority will be given to those affected by the current NMFS closure. 
My goal is to get compensation, coupled with a good piece of 
conservation legislation, to permanently reduce the effort on this 
fishery.
    I am pleased to be able to discuss H.R. 1367, the Atlantic Highly 
Migratory Species Conservation Act of 2001. This issue, as you know, 
continues to be extremely important to me. We stand at an historic 
crossroads for the conservation of highly migratory species (HMS). The 
effective management of Atlantic HMS is one of the most complex and 
difficult challenges facing the National Marine Fisheries Service. 
These species range widely throughout international waters and the 
jurisdictions of many coastal nations with diverse political 
perspectives on how to properly utilize and manage this valuable 
resource.
    The fishing practices and marketing strategies are equally diverse. 
Unlike most other domestic fisheries, effective multilateral management 
is the goal of our nation's HMS policy. In fact, Congress placed 
Atlantic HMS management authority in the hands of the Secretary of 
Commerce instead of the Regional Fishery Management Councils, in 
theory, to ensure that our government maintains an Atlantic-wide 
perspective and vision.
    It is my firm belief that this Congress, together with thousands of 
concerned fisherman and conservationists, have a unique opportunity to 
work together to aggressively protect and rebuild stocks of HMS such as 
billfish, sharks and swordfish. I also believe it is our duty and 
obligation to fight to preserve and rebuild these now vulnerable and 
threatened species.
    In August of 1999, I was approached by representatives of the 
longline industry and three recreation/conservation fishing 
organizations who suggested I sponsor legislation to: (1) permanently 
close an area of U.S. waters in the South Atlantic to pelagic longline 
fishing; (2) establish two time-area closures in the Gulf of Mexico to 
pelagic longlining; (3) reduce billfish by catch and the harvesting of 
juvenile swordfish; and (4) provide affected fishermen a buy out to 
compensate them for the loss of fishing grounds and fishing 
opportunities. I remain a strong supporter of this concept.
    I first began work on this important issue because I feel very 
strongly that a balance can be achieved. Prior to and following the 
introduction of H.R. 3331, my first bill targeting these critical 
needs, I met with, and spoke to, a number of pelagic longline 
fisherman, recreational fisherman and their organizations, and a number 
of conservation and environmental groups.
    I introduced H.R. 3331, in the 106th Congress, in part, because the 
National Marine Fisheries Service established the pelagic longline 
fishery as a limited-entry fishery through the HMS Fishery Management 
Plan. As NMFS is well aware, I have been asking them to take this 
action for many years. The establishment of a limited access system is 
critical to reduce harvesting capacity through attrition or a buyback 
program. Hence, once pelagic longline permits for HMS are bought-out as 
proposed in my bill, there would be no further vessels re-entering the 
fishery.
    I believe in this concept because the current management system 
whereby NMFS publishes a regulatory rule that is challenged by 
seemingly endless lawsuits is not an effective way of promoting sound 
HMS fishery management. This system has to change.
    The International Convention for the Conservation of Atlantic Tunas 
(ICCAT), led by the United States, approved a ten-year rebuilding plan 
for North Atlantic swordfish. Although the final approved plan did not 
go as far as I would have liked in reducing the annual quota 
internationally, it nevertheless set an important tone for 
conservation. I commend the U.S. ICCAT Commissioners for their tenacity 
in getting the rebuilding plan approved.
    Preliminary scientific information suggests the North Atlantic 
Swordfish stock level seems to be improving slightly, according to the 
landings figures form 1998 to 1999, but even if this an accurate 
assessment, it is still not nearly enough to maintain a sustainable 
fishery. The amounts of dead discards, meaning juveniles that are too 
small to keep have gone up dramatically from 1998 to 1999.
    The harvesting of so many juveniles poses a huge problem to enable 
the stock to rebuild itself, if w e continue to harvest them at this 
rate. The NMFS even states in their ``2001 SAFE (Stock Assessment and 
Fishery Evaluation) Report for Atlantic HMS,'' that ``The Standing 
Committee on Research and Statistics cautioned that the north Atlantic 
recovery plan (for Atlantic Swordfish) is very sensitive to any 
overharvests. If recent overharvests of 10% continue, the stock would 
likely not have a greater than 50% probability of reaching biomass 
levels that will support Maximum Sustainable Yield (MSY).''
    According to the latest stock assessments for Atlantic Yellowfin 
Tuna, the stock is still overfished, meaning there are too few fish to 
have a viable fishery and overfishing continues to occur, meaning we 
cannot keep taking this fish without harming the stock, as it cannot 
replenish itself that quickly.
    The landings by the longline community for Yellowfin Tuna are up 
dramatically from 1998 to 1999, as with Bigeye, Bluefin, Albacore and 
Skipjack Tuna. Most alarming to me is the increase in the dead discards 
of both Blue and White Marlin, w hich are both up dramatically from 
1998 to 1999. This is just unacceptable for species that are on the 
brink of being wiped out completely.
    In evaluating the most recent data provided by the NMFS on stock 
assessments, I am pleased the Swordfish landing has not increased, 
however, I am disappointed in the increase in landings of other HMS, 
and I want to make it abundantly clear that we are nowhere near the end 
to ensure the sustainability of these species.
    I reintroduced HR. 3331 in the form of H.R. 1367 on April 4, 2001. 
While different from H.R. 3331, it is a strong piece of conservation 
legislation. It establishes annual closures of Highly Migratory Species 
Conservation Zones in the Gulf of Mexico and the Mid Atlantic Bight.
    This bill establishes a voluntary commercial fishing permit 
compensation program to all individuals holding a Directed Swordfish 
Initial Limited Access Permit or Tuna Longline Permit with Incidental 
Swordfish and shark.
    Priority will be given to those permit holders, who from 1992 
through 1998 fishing seasons, had significant landings of fish under 
those permits from the areas closed under the NMFS August 1, 2000 final 
rule.
    H.R. 1367 has a Highly Migratory Species Bycatch Mortality 
Reduction Research Program, which establishes a three year research 
program to determine gear configurations and uses that are most 
effective in reducing HMS and sea turtle mortality. It is vitally 
important we explore all avenues to reduce this dramatic reduction in 
species. The most recent stock assessments conducted by NMFS reinforce 
what I have been saying all along - these species have been fished 
practically to extinction and if we don't take action now, they may 
never recover. That would be a tragedy.
    This is the continuation of an arduous, yet critically important 
process, and I am confident w e can provide a conservation measure that 
is good for our beleaguered highly migratory species of fish. I look 
forward to working together with all of you and continuing to fight 
until a solid conservation measure is passed and becomes law.
    Thank you. I look forward to hearing your testimony.
                                 ______
                                 
    Mr. Saxton. And at this point, I will turn to Mr. Underwood 
for his comment.

  STATEMENT OF THE HONORABLE ROBERT UNDERWOOD, A DELEGATE TO 
                       CONGRESS FROM GUAM

    Mr. Underwood. Thank you, Mr. Chairman.
    I am in favor of conservation of our ocean resources, and I 
applaud your continuing efforts to promote this goal.
    I am also in favor of fair and equitable uses of these 
resources, taking into account all of the stakeholders and the 
services and the benefits that they provide to their 
communities.
    Bycatch in any fishing operation is always a concern, both 
for the survival of that target fishery and the target fishery 
for the fish that was caught as bycatch. Efforts to reduce 
bycatch must be taken wherever necessary, but in such a manner 
as to be effective as possible while causing the least amount 
of harm to those interests which rely on fishing operations.
    Achieving this balance is a delicate and difficult task, 
and I look forward to hearing from the witnesses today on how a 
successful balance can be achieved and how we can handle this 
particular legislation.
    Thank you, Mr. Chairman. I look forward to the testimony.
    [The prepared statement of Mr. Underwood follows:]

  Statement of the Honorable Robert Underwood, A Delegate to Congress 
                               from Guam

    Thank you, Mr. Chairman. I am in favor of conservation of our ocean 
resources and I applaud your continuing efforts to promote this goal. I 
am also in favor of fair and equitable use of those resources, taking 
into account all the stakeholders and the services and benefits they 
provide to their communities.
    Bycatch in any fishing operation is always a concern, both for the 
survival of that target fishery and the target fishery for the fish 
that was caught as bycatch. Efforts to reduce bycatch must be taken 
wherever necessary, but in such a manner as to be as effective as 
possible while causing the least amount of harm to those interests 
which rely on fishing operations. Achieving this balance is a delicate 
and difficult task, and I look forward to hearing from the witnesses 
today on how a successful balance can be achieved.
    Thank you, Mr. Chairman.
                                 ______
                                 
    Mr. Saxton. Thank you.
    And we will get right to you folks.
    Dr. Hogarth, if you would like to begin?
    And I am told by staff that I need to ask unanimous consent 
to submit other statements for the record, and we have one here 
from Mr. Gilchrest, the Chairman.
    [The prepared statement of Mr. Gilchrest follows:]

 Statement by the Honorable Wayne Gilchrest, Chairman, Subcommittee on 
              Fisheries Conservation, Wildlife and Oceans

    I would like to welcome our witnesses to this hearing on the 
important topic of conservation of Atlantic highly migratory species.
    This hearing will focus on several important issues for conserving 
Atlantic highly migratory species and effectively managing the U.S. 
longline fishery, including time/area closures, pelagic longline vessel 
capacity reduction, a pelagic longline vessel permit holder 
compensation program, research to reduce pelagic longline bycatch 
mortality, and longline vessel monitoring devices.
    There are significant challenges to effectively managing highly 
migratory species in the Atlantic Ocean because these species range 
over broad areas of the ocean, they are harvested by many other nations 
outside of U.S. waters, and they are jointly managed by an 
international management organization--the International Commission for 
the Conservation of Atlantic Tunas (ICCAT).
    I am particularly interested in the scientific basis and the 
conservation benefits of the time/area closures in the proposed 
legislation and of the existing time/area closures that the National 
Marine Fisheries Service has implemented through regulations, and the 
social and economic impacts to U.S. longline fishermen of these 
existing and proposed closed areas.
    I hope that today's hearing will provide important information and 
ideas for improving highly migratory fisheries management in U.S. 
waters of the Atlantic Ocean.
    I look forward to hearing from our witnesses.
                                 ______
                                 

 STATEMENT OF WILLIAM HOGARTH, ACTING ASSISTANT ADMINISTRATOR 
        FOR FISHERIES, NATIONAL MARINE FISHERIES SERVICE

    Dr. Hogarth. Thank you, Mr. Chairman and members of the 
Subcommittee.
    I am Bill Hogarth, the Acting Assistant Administrator for 
Fisheries for the National Oceanic and Atmospheric 
Administration.
    I appreciate the opportunity to testify today on H.R. 1367, 
the Atlantic Highly Migratory Species Conservation Act.
    Since the early 1990's, Atlantic highly migratory species 
have been managed directly by the Secretary of Commerce, 
primarily because the range of these species extends over five 
regional fishery management councils.
    Secretarial management also facilitates the U.S. 
participation in the international highly migratory 
conservation programs and the establishment and negotiation of 
the U.S. position at the meetings of the International 
Commission for the Conservation of Atlantic Tunas (ICCAT).
    Atlantic swordfish, billfish, and some tuna species are 
harvested by a large number of nations and currently are 
considered by ICCAT to over-exported. The U.S. has worked 
through ICCAT to foster international cooperation for the 
management of highly migratory species.
    The U.S. has played a key role in establishing an 
international rebuilding program for bluefin tuna, swordfish, 
blue marlin and white marlin. Our progress would not have been 
possible without the strong support of the U.S. commercial and 
recreational fisherman, environmental groups, Congress, and 
others.
    While our fisherman have a consistent record of compliance 
with these ICCAT programs, improvements in monitoring and 
enforcement by other contracting parties and nonmember parties 
must be implemented.
    Consistent with the ICCAT responsibilities, the Magnuson-
Stevens Act requires NOAA Fisheries to manage highly migratory 
species within U.S. waters. In 1999, we completed a fishery 
management plan for the Atlantic tunas, swordfish, and sharks, 
and amended an existing Fisheries Management Plan (FMP) for 
billfish.
    These new plans include management measures to identify and 
rebuild over-fished highly migratory species stocks, minimize 
bycatch, limit access to the pelagic longline fisheries for 
highly migratory species, and address socioeconomic impacts on 
fishermen and their communities.
    The longline fishery provides an important source of 
seafood for the American consumer. However, it, as well as 
several other commercial fisheries, unintentionally creates 
bycatch, including juvenile swordfish, billfish, bluefin tuna, 
and shark, and also threatened and endangered species, such as 
sea turtles.
    To minimize bycatch, NOAA Fisheries implemented a number of 
regulations in their highly migratory species plan. 
Additionally, in August 2000, NOAA Fisheries established three 
additional time-area closures for pelagic longline fishing, and 
prohibited use of live bait in the Gulf of Mexico.
    These closures are expected to reduce swordfish, sailfish, 
and large coastal shark discards.
    And most recently, NOAA Fisheries closed the Grand Banks to 
pelagic longline fishing to reduce sea turtle interactions and 
mortality.
    All of these actions are the subject of pending lawsuits.
    Mr. Chairman, overall, NOAA Fisheries supports the 
objectives to H.R. 1367 to reduce bycatch while mitigating 
social or economic impacts. We would like to work with the 
Subcommittee to clarify and amend certain provisions of the 
bill that we feel are unclear or appear to conflict with other 
current regulations.
    Also, several of the programs outlined in H.R. 1367 require 
appropriated funds that are inconsistent with the President's 
budget request. And in view of overall funding constraints, we 
do not intend to make a request for such funds in fiscal year 
2002.
    Let me say up front that one of the major concerns of the 
legislation is the reallocation of total allowable catch in 
section 12. Under the ICCAT rebuilding program for swordfish, 
the U.S. has been allocated a 29 percent share.
    Depending on participation in the pelagic longline buyout 
program and the impact of all the closed areas, it may not be 
possible for the U.S. to harvest the total amount of 
reallocated catch of swordfish using handgear, which will lead 
to an accumulated carryover of unharvested stocks. If the U.S. 
fishing fleet is unable to harvest its share of the Atlantic 
swordfish quota allocated by ICCAT, the quota will most likely 
be reallocated to other fishing nations. If this happens, the 
U.S. could lose negotiating power with ICCAT, leading to 
reductions in future allocation.
    The U.S. currently has more regulations to prevent bycatch 
and more areas closed to fishing with pelagic longline gear 
than any other nation. If the U.S. position is eroded and its 
share of swordfish is reallocated, the result may be more 
bycatch Atlantic-wide rather than less.
    In addition, Mr. Chairman, we have conducted analysis for 
the closed areas in H.R. 1367. Depending on the redistribution 
of fishing effort, the closures could either have no impact on 
discard rates or could increase them to a small extent.
    In addition, we are uncertain that two capacity reduction 
programs are necessary and recommend that one program be 
developed to address capacity reduction and vessel 
compensation.
    Also, H.R. 1367 requires completion of the vessel 
compensation program in 225 days. With the National 
Environmental Policy Act (NEPA) requirements and all other 
requirements we have, we feel like, without a specific 
implementation process in the bill, this program would take up 
to 20 months.
    The bill also does not appropriate funds for either buyback 
program. And given current funding constraints, we prefer not 
to commit to either program until funds are appropriated.
    Additionally, H.R. 1367 requires us to notify Congress of 
other potential funding sources for this program. And at the 
present time, we are unaware of additional sources.
    Once again, I would like to state that NOAA Fisheries 
supports the stated goals of H.R. 1367. I recognize the 
significance of the many issues raised today and the efforts of 
Congress to meet the conservation requirements that minimize 
adverse impacts on displaced fisherman.
    I look forward to working with Congress to address our 
concerns with the proposed legislation.
    Thank you for the opportunity to testify. I look forward to 
answering any questions.
    [The prepared statement of Mr. Hogarth follows:]

 Statement of William T. Hogarth, Ph.D. Acting Assistant Administrator 
for Fisheries, National Marine Fisheries Service, National Oceanic and 
         Atmospheric Administration U.S. Department of Commerce

    Good morning, Mr. Chairman and members of the Subcommittee. I am 
Dr. William Hogarth, Acting Assistant Administrator for Fisheries of 
the National Oceanic and Atmospheric Administration. Thank you for the 
opportunity to testify today on H.R. 1367, the Atlantic Highly 
Migratory Species (HMS) Conservation Act.
    This bill, introduced by Rep. Saxton, would- (1) establish seasonal 
closures to pelagic longline fishing for HMS in the Gulf of Mexico, the 
Northern Mid-Atlantic Bight, and the Southern Mid-Atlantic Bight; (2) 
limit the number of pelagic longline sets in the Mid-Atlantic Bight 
during the summer months; (3) establish two capacity reduction programs 
to compensate eligible vessel owners for voluntarily giving up their 
pelagic longline permits; (4) establish a Pelagic Longline HMS Bycatch 
and Mortality Reduction Research Program to identify and test a variety 
of pelagic longline fishing gear configurations and determine which of 
those configurations are most effective at reducing bycatch mortality; 
(5) reallocate a portion of the total allowable catch of swordfish from 
the pelagic longline fleet to the commercial handgear fleet; and (6) 
require pelagic longline vessels to be equipped with vessel monitoring 
systems. We note that several of these programs require appropriated 
funds that are not consistent with the President's budget request and, 
in view of current overall funding constraints, we do not intend to 
make a request for such funds for fiscal year 2002.
    As you know, Atlantic HMS, such as swordfish, tunas, billfish, and 
sharks, range throughout tropical and temperate oceans and include some 
of the world's largest and most valuable fish. They are sought after by 
commercial fishermen and prized by many sport anglers. Since the early 
1990s, Atlantic HMS have been managed directly by the Secretary of 
Commerce, primarily because the range of these species extends over 
five regional fishery management council areas. Secretarial management 
also facilitates U.S. participation in international HMS conservation 
programs and the establishment and negotiation of U.S. positions at 
meetings of the International Commission for the Conservation of 
Atlantic Tunas (ICCAT), the 31-member organization charged with 
coordinating the science and management of tunas and tuna-like species.
    Atlantic swordfish, billfish, and some tuna species are harvested 
by a large number of nations and currently are considered by ICCAT to 
be overexploited. Consequently, we must work with other nations to 
eliminate overfishing and rebuild these fish stocks. Both the United 
Nations Agreement on Straddling and Highly Migratory Fish Stocks and 
the United Nations Convention on the Law of the Sea stress the need for 
cooperation among nations to ensure effective conservation and 
management of HMS throughout their range. Therefore, the United States 
has worked through ICCAT to foster international cooperation for the 
management of HMS. In recent years, the United States has played a key 
role in establishing international rebuilding programs for bluefin tuna 
(1998), swordfish (1999), and blue and white marlin (2000). Our 
progress on the international front would not have been possible 
without the strong support of U.S. commercial and recreational 
fishermen, environmental groups and others. While U.S. fishermen have a 
consistent record of compliance with these ICCAT programs, improvements 
in monitoring and enforcement by other contracting parties and non-
members are greatly needed to ensure success.
    Consistent with our ICCAT responsibilities, the Magnuson-Stevens 
Fishery Conservation and Management Act (Magnuson-Stevens Act) requires 
that NOAA Fisheries take action to manage HMS fisheries within U.S. 
waters. With the assistance of the HMS and Billfish Advisory panels, in 
April 1999 NOAA Fisheries completed a fishery management plan for. 
Atlantic tunas, swordfish, and sharks (HMS Plan) and amended an 
existing fishery management plan for billfish. These new plans were 
among the first to be implemented under the new requirements of the 
Magnuson-Stevens Act and included management measures to identify and 
rebuild overfished HMS stocks, minimize bycatch, limit access to the 
pelagic longline fishery for HMS, and address socioeconomic impacts on 
fishermen and their communities.
    Pelagic longlines are the primary commercial gear type, besides 
handgear, in the HMS fisheries of the Atlantic ocean, including the 
Gulf of Mexico and Caribbean. The longline fishery thus provides an 
important source of seafood for the American consumer. However, like 
most types of fishing gear, it unintentionally catches species and 
sizes of fish that, for reason of regulation or economic choice, are 
thrown back into the sea. While some bycatch is released alive, some is 
also discarded dead. These dead discards in the pelagic longline 
fishery have declined over the past decade; however, concerns remain 
about bycatch levels, particularly of juvenile swordfish; billfish, 
bluefin tuna, and sharks. In addition, NOAA Fisheries must address the 
incidental catch of threatened and endangered species such as sea 
turtles. To minimize bycatch to the extent practicable, as required 
under the Magnuson-Stevens Act, NOAA Fisheries implemented a number of 
regulations in the HMS Plan such as a time-area closure for pelagic 
longline fishing in the Mid-Atlantic Bight to reduce discards of 
western Atlantic bluefin tuna and a requirement for pelagic longline 
fishermen to move 1 nautical mile after an interaction with a marine 
mammal or a sea turtle.
    Additionally, on August 1, 2000, NOAA Fisheries published a final 
rule that established three additional time-area closures for pelagic 
longline fishing and prohibited the use of live bait in the Gulf of 
Mexico. Together, the three time-area closures implemented in this 
regulation are expected, if effort is redistributed, to reduce 
swordfish, sailfish, and large coastal shark discards by 31, 14, and 33 
percent, respectively. While the time-area closures themselves are not 
expected to reduce blue and white marlin if effort is redistributed, 
NMFS expects the ban on live bait to reduce discards of these species 
by approximately three percent. These regulations were also chosen, 
after large amounts of public input and scientific analyses, because 
they minimize economic and social impacts, to the extent practicable, 
compared to the other options considered. It should be noted that these 
regulations are the subject of a pending lawsuit and the outcome cannot 
be predicted with any certainty. Additionally, NOAA Fisheries continues 
to monitor the impact of the regulatory closures to evaluate their 
effectiveness in reducing bycatch. If the bycatch reduction objectives 
are not being met, we may modify those closures through rulemaking.
    Most recently, NOAA Fisheries published an emergency rule, 
effective until January 9, 2002, to reduce sea turtle interactions and 
mortality. This emergency rule closes the Northeast Distant statistical 
area, also known as the Grand Banks, to pelagic longline fishing and 
requires pelagic longline gear modifications. This regulation and the 
biological opinion it is based on is also the subject of a pending 
lawsuit.
    Overall, NOAA Fisheries supports the objectives of H.R. 1367 which, 
similar to the requirements of the Magnuson-Stevens Act, is to reduce 
bycatch in the Atlantic pelagic longline fishery while minimizing any 
social or economic impacts. We would like to work with you to clarify 
and amend certain provisions of the legislation that are unclear or 
appear to conflict with current regulations. I will briefly review our 
concerns at this hearing.
    Regarding the seasonal closures in section 5, NOAA Fisheries has 
conducted analyses for the new closed areas proposed by H.R. 1367. 
Using the same analytical framework developed to evaluate the 
regulatory closures previously implemented, the new area closures 
described in H.R. 1367 may have little, if any, effect on. the number 
of fish kept or discarded. Specifically, under a scenario which assumes 
no redistribution of fishing effort due to the targeted buyback 
provisions of the bill, the area closures in H.R. 1367 are estimated to 
decrease the number of swordfish discards by 1.2 percent, blue marlin 
discards by 1.5 percent, sailfish discards by 3.2 percent, and white 
marlin discards by 3.5 percent (see Attachment). If any of the fishing 
effort is redistributed because vessels fish in other areas rather than 
participate in the capacity reduction program, the area closures in 
H.R. 1367 could either have no impact on discard rates or could 
increase discards to a small extent. Thus, while the area closures 
would not have a large impact in terms of the number of fish landed by 
commercial. fishermen, the results of the closures proposed appear to 
be contrary to H.R. 1367's stated purpose to reduce bycatch.
    NOAA Fisheries is uncertain how the pelagic longline capacity 
reduction program in section 5(c) and the pelagic longline fishing 
vessel permit holder compensation program in section 6 relate to one 
another and whether two separate programs are needed. We recommend that 
only one program be developed to address capacity reduction and vessel 
compensation.
    Additionally, H.R. 1367 requires completing the section 6 vessel 
compensation program in 225 days (7.5 months). However, without a 
specific implementation process in the legislation, this program would 
require an implementing rule with an opportunity for public comment and 
an environmental impact analysis under the National Environmental 
Policy Act (NEPA). Consequently, completing the section 6 program could 
require from 14 to 20 months.
    While the bill does authorize the appropriation of funds for the 
costs of both permit buyback programs under section 5(c) and section 6, 
it does not appropriate funds for either program. Given current funding 
constraints, we prefer not to commence either program before the 
appropriation of adequate funds, and we do not intend to make a request 
for such funds for fiscal year 2002. Additionally, the section 5(c) 
program requires us to notify Congress of sources of additional funds 
in case the appropriated funds are inadequate to cover the costs of the 
program. We are unaware of any other sources.
    H.R. 1367 requires appropriated funds for research and we note that 
such funds are not consistent with the President's budget request. The 
bill also requires the Secretary of Commerce to collect fees on vessel 
landings to fund observers. If Congress intends to implement such a 
cost-sharing mechanism, NOAA Fisheries is concerned that a one percent 
fee may not fully fund this mandatory program. We are also concerned 
that the scientific workshop referenced under Program Design presents a 
potential conflict with the Federal Advisory Committee Act (FACA). An 
alternative would be to exempt the scientific workshop from FACA or 
legislatively require a FACA charter.
    The section 5 vessel buyout program is stipulated to be a reverse 
auction open to all permitted vessels, but the bids would have to be 
evaluated against the priority for vessels with a fishing history in 
the mid-Atlantic region. NOAA Fisheries would have to determine which 
records would be accepted to demonstrate a landings history and would 
have to develop a ranking scheme to establish the priority vessels. 
Such a scheme will take time to implement and will increase costs over 
what would normally be associated with a reverse auction.
    Section 6(a) of H.R. 1367 refers to ``initial limited access 
permits'' that were issued by NOAA Fisheries to qualifying vessels in 
July 1999 on a temporary basis. Because most of these initial permits 
have since expired and have been renewed, the text should simply 
reference ``limited access permits.'' NOAA Fisheries also recommends 
that the legislation clarify that pelagic longline fishing for HMS is 
authorized only for vessels with all three permits (swordfish/shark/
tuna) and that the permits.be surrendered as a package.
    Similarly, NOAA Fisheries believes the intent of section 6(b), 
``ineligibility due to transfer,'' needs clarification. The current 
text includes transfer of non-HMS federal permits and this, together 
with the reference date, may result in the exclusion of more vessels 
from the compensation program than is intended. Also, the reduction in 
compensation for the ``fair market value'' of permits not held by the 
vessel is perhaps not applicable, as a pelagic longline vessel must 
have all three permits. Finally, the intent of the rules regarding 
transfer of permits not surrendered after compensation is unclear. For 
example, could a vessel owner be compensated by the government for not 
using the permits in the pelagic longline fishery and then sell the 
permits separately to individuals in the handgear fisheries for tunas, 
sharks or swordfish?
    If Congress intends to compensate vessel operators based on catch 
history, we recommend the landing payment documentation provision in 
section 6(e)(3) be deleted and that landing payments be based 
exclusively on the default landing payment determination provided for 
in section 6(e)(4). This would simplify and accelerate the program 
process, as well as reduce both the government's and program 
applicants' administrative and paperwork burdens.
    Section 11(d) refers to the ``expiration of the closure of the Gulf 
of Mexico Conservation zone,'' the date of which does not appear to be 
specified in the legislation.
    NOAA Fisheries would need more clarification on the intent of 
section 12, the reallocation of total allowable catch, in order to 
undertake the rulemaking that would be necessary to implement this 
requirement. Under the ICCAT rebuilding program for swordfish, the U.S. 
has been allocated a 29 percent share of the total allowable catch. 
Depending on participation in the pelagic longline buyout program and 
the impact of all the closed areas, it may not be possible to harvest 
the total amount of reallocated catch of swordfish using handgear, 
which will lead to an accumulated carryover of unharvested U.S. quota. 
If the U.S. fishing fleet is continually unable to harvest its share of 
the Atlantic swordfish quota as allocated by ICCAT, it. is possible 
that the quota would be reallocated to other fishing nations. If this 
happens, it is also possible that the United States would lose 
negotiating power at ICCAT, leading to reductions in future 
allocations. It should be noted that, currently, the United States has 
more regulations to prevent bycatch and more areas closed to fishing 
with pelagic longline gear than any other nation. This record of 
compliance is not matched by all other fishing nations. If the U.S. 
negotiating position is eroded and the U.S. share of swordfish is 
reallocated, the result may be more bycatch Atlantic-wide, rather than 
less.
    Additionally, section 12 indicates some potential for the 
commercial swordfish handgear fishing fleet to benefit from the fishing 
capacity reduction associated with the vessels involved in the section 
5(c) and/or section 6 programs. If this is a quantifiable potential, we 
recommend that the beneficiaries repay, though post-reduction landing 
fees, an appropriate portion of the programs' cost. We believe that 
those who benefit from capacity reduction's effect should repay a 
reasonable portion of the reduction's cost.
    Regarding section 14, vessel monitoring systems, I should note that 
NOAA Fisheries is currently under a court order to further consider the 
costs and benefits of vessel monitoring systems in the pelagic longline 
fishery. The outcome of this litigation cannot be predicted with any 
certainty. Certainly, new legislative requirements will determine how 
NOAA Fisheries implements a vessel monitoring program.
    Once again, I would like to state that NOAA Fisheries supports the 
stated goals of H.R. 1367. We recognize the significance of the many 
issues raised and the efforts of Congress to meet conservation 
requirements and minimize adverse impacts on displaced fishermen. I 
look forward to working with Congress to address our concerns with the 
proposed legislation.
    Thank you for the opportunity to provide this testimony. I would be 
happy to respond to questions.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.001
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.002
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.003
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.004
                                 
    Mr. Saxton. Thank you, Dr. Hogarth.
    Mr. Hayes?
    Mr. Hayes. Yes, Mr. Chairman, I have a written statement, 
which I would submit for the record, if I could, and I will 
just summarize it.
    Mr. Saxton. Without objection.

    STATEMENT OF ROBERT G. HAYES, GENERAL COUNSEL, COASTAL 
                    CONSERVATION ASSOCIATION

    Mr. Hayes. I am Bob Hayes. I am the general counsel of the 
Coastal Conservation Association.
    And as I sit here today and I think about this problem and 
I think about your bill, which I commend you for introducing, I 
think that everyone in this room realizes that we have a 
problem and that our problem is very well summed up in your 
opening statement.
    White marlin are now at about 15 percent of MSY, and they 
are at 15 percent of MSY in an Atlantic-wide stock, and we have 
an Atlantic-wide problem.
    The question that your bill presents is: What should we do 
about that problem domestically? And then secondly, what are 
the elements of that bill which can lead to an international 
solution?
    And as I said, I commend you for putting the spotlight back 
on this issue, because I think this is an issue that is going 
to be resolved ultimately in three separate forums. That would 
be this one, in the administration, and internationally.
    Like you, I am not going to go through a history of the old 
bill. It was an interesting exercise.
    But I would like to talk about essentially the four issues 
that are in this bill and essentially were in the last bill, 
and talk a little bit about the need to focus in on those four 
areas.
    Of those four areas, the first one is to reduce effort. I 
think the buyout system makes an enormous amount of sense. I 
think that recreational fisherman are willing to contribute to 
domestic buyouts. And I think that we ought to be thinking 
about buyouts internationally and how to fund them.
    The difficulty, as Bill just said in his testimony, and I 
think everyone else will say, is the difficulty with buyouts is 
getting the money to do them. Everyone is in favor of them. The 
question is, where do you get the money?
    I think one of the things that we stressed in the last 
bill, which we would stress again, is that recreational 
fisherman, if they see a benefit to the resource, are willing 
to participate in buyouts.
    The second thing is hotspots, which you have in your bill. 
Frankly, the things that were in the last bill which are 
identical to your bill were essentially drawn up in a room with 
a couple of scientists and a little bit of information and an 
enormous amount of negotiation between the parties.
    They may not have been perfect. I think particularly the 
one in the gulf, people criticized it as not having any impact 
whatsoever.
    I think we ought to look at a biological basis for these 
closures. And if we did, we would be looking at a much larger 
set of closed areas. Once we have done that, we can then take a 
look at whether these closed areas have an economic impact.
    And as I said in my testimony, there are clearly high 
bycatch areas in the United States, including the mid-Atlantic, 
the western gulf off of Texas, and the northern Caribbean, 
essentially between the Bahamas and Cuba. Those are places that 
even a nonscientist like myself can look at the data and say, 
``Here's a problem.''
    The question becomes balance. What do we do about that 
problem? How do we go ahead and provide for conservation 
without necessarily or unnecessarily impacting a commercial 
entity. It seems to me that is the basis for the compromise.
    The third thing, which I think was in the last bill, which 
is in your bill, is research. Research is the single largest 
component and, to me, one of the most attractive things in both 
your bill and the bill that was filed last year, and were in 
all of your bills last year.
    If we can get the focus that you have put on this issue 
down here to the scientists, so that they can get the kinds of 
funds and structured program with the interaction of the 
environmental community, the recreational community, and the 
commercial community, to find ways to reduce bycatch and 
longlines, we can then set a scientific precedent that allows 
us to go internationally and really make some legitimate 
headway on this issue.
    I would ask the Chairman to consider pushing in this cycle 
a separate research bill that did nothing but this issue and 
got us to a point where we had the kind of information that 
gave us a credibility that was irrefutable in an international 
forum.
    Lastly, I would like to point out, as I said, this is an 
international issue. You have to deal with this issue 
internationally.
    That is in no way to suggest that the United States should 
not take a leadership role. That means that there will be 
domestic regulations. There will be impacts on domestic 
fisherman. And there will be solutions, which are developed 
domestically, which we carry internationally. That is all part 
of leadership.
    Frankly, as a person who has been to ICCAT the last 2 or 3 
years, I would like to commend the commercial industry on 
showing enormous leadership last year on the marlin deal and 
then the year before that on the swordfish recovery plan. 
Without them, we don't have those things.
    I just think that there was a lot of acrimony last year. 
There has been a lot of acrimony over this issue.
    I think it is time for the communities to get together, 
work out a solution, work with you, Mr. Chairman, work with 
other interested members, and see if we can come up with a 
solution that may not be a perfect legislative solution, but 
will allow us to develop that leadership to take it 
internationally. And we pledge to work with you and all the 
parties in this room to do that. Thank you.
    [The prepared statement of Mr. Hayes follows:]

  Statement of Robert G. Hayes on behalf of the Coastal Conservation 
                              Association

    Good morning, my name is Bob Hayes; I am here today on behalf of 
the Coastal Conservation Association (``CCA'') to present their views 
on the issue of longline bycatch. CCA is a national organization of 
sport fishermen headquartered in Houston, Texas, with chapters in 
fifteen states on the Gulf of Mexico and Atlantic coasts. We presently 
have 80,000 members, many of which are involved in offshore fisheries 
for billfish.
    As we sit here today, we must acknowledge that marlin stocks are in 
terrible condition. The decline of these stocks can be correlated to 
the growth of international longlining for tuna and swordfish. We have 
an Atlantic-wide problem, and if we don't solve it, it will progress to 
an endangered species problem. No one wants to see that. We 
congratulate Chairman Gilchrist and Congressman Saxton for having this 
hearing today to continue the focus on this significant resource 
problem.
    CCA became involved in this issue in the late 1980s as a result of 
the inaction of the federal management system to address the declining 
billfish populations. The thinking at the time was that conservation of 
billfish only required restrictions on U.S. citizens within our EEZ to 
control the decline. The underlying theory was that if the United 
States controlled its market to prevent the sale and import of Atlantic 
billfish and controlled the bycatch by its own fleet, the stock would 
recover. Regulations were established that required our fleet to 
discard all billfish caught in U.S. waters. Minimum size limits were 
put in place for recreational fisherman, and billfish were declared as 
the first federal marine gamefish. U.S. landings of billfish both 
recreationally and commercially have dropped to a point where present 
landings of marlin do not exceed 200 fish. It was a great plan, but it 
did not work.
    It became clear in the1990s that the level of catch by domestic 
vessels was only a small percentage of the total mortality for Atlantic 
billfish stocks. Recreational fishermen began to see a further decline 
in abundance, especially in white marlin. This led to an outcry from 
recreational groups and some discussions with the National Marine 
Fisheries Service (NMFS) to address the problem. Congress intervened 
with changes in the Magnuson Act in 1990 and in the Sustainable 
Fisheries Act. Ultimately, NMFS organized the Highly Migratory Species 
Office and progress toward a solution began in 1997.
    The proposed solution was a set of regulations published in the 
spring of 1999 and the summer of 2000. The regulations addressed 
longline bycatch by closing large sections of the EEZ to the commercial 
fleet. The theory behind the closures was based on two ideas. The first 
was that there are identifiable hot spots in the ocean where the 
bycatch of longline fleets is significantly higher than other places 
they could fish for targeted species. The other was that it was a 
worthwhile and positive conservation tool to decrease the number of 
discards of small swordfish.
    Unfortunately, for these ideas to work, there has to be an overlap 
of the areas and displacement of vessels has to be minimized. The NMFS 
rule actually increased the bycatch of marlin, sharks, turtles and 
marine mammals and incensed recreational fishermen to the point where 
CCA and The Billfish Foundation filed suit challenging the regulation. 
The suit, which has been joined with suits by the National Coalition 
for Marine Conservation and other environmental groups and a group of 
longliners in Florida, is now awaiting a decision here in D.C. Federal 
District Court. Every plaintiff in these suits is asking the Court to 
return these regulations to NMFS to reevaluate the size and impact of 
the closed areas.
    In addition to the administrative efforts, there was a concerted 
effort by all of the communities to accomplish some conservation 
internationally. Beginning in the mid 1990s there was a realization 
that growth in both the size and efficiency of international longline 
fleets was having a continued detrimental effect on the health of 
marlin stocks. There was no question that the fleets were becoming more 
efficient. As the use of the gear type increased in both the tuna and 
swordfish fisheries, so did the bycatch of marlins.
    In the last five years, three international agreements have set the 
framework for what could be a solution to the problem of longline 
bycatch. The first is a set of agreements to hold member and non-member 
countries accountable for conservation restrictions. In this regard, 
the International Commission for the Conservation of Atlantic Tuna 
(ICCAT) may be well ahead of every other international conservation 
convention except the Convention on International Trade in Endangered 
Species (CITES). Having said that, it still has a long way to go to 
make this work.
    The second agreement in 1999 established a ten-year recovery plan 
for swordfish. This plan was largely the result of U.S. leadership at 
ICCAT. It could not have been accomplished without the sacrifices of 
the domestic longline industry, which understood the need here at home 
to get a recovery plan that worked. As important as a recovery plan for 
swordfish is, swordfish recovery will likely only further the decline 
of marlin.
    Therefore, the most significant agreement from a recreational 
standpoint was done last year when ICCAT agreed to begin to reduce the 
mortality of marlin and develop a recovery plan for them in 2002. The 
recovery plan will be the first attempt by ICCAT to develop and plan 
for something of no commercial value to most of the member countries. 
The challenge is to provide realistic and constructive management 
measures that can be implemented by the international longline fleet 
and enforced.
    Finally, there was the attempt in the last Congress to put a bill 
together that addressed what many people thought were the four elements 
required to solve the problem. The four elements of the last bill were:

    L1. Reduction of effort in the longline fleet.
    L2. Closed areas to reduce bycatch.
    L3. Research to modify gear and /or fishing practices to reduce 
bycatch.
    L4. Development of a bycatch reduction program that could be 
implemented internationally.

    The effort failed primarily because of the difficulty in getting 
agreement on which measures were necessary and the federal funds to 
complete the buyout.
What have we learned?
    Federal management of billfish is only thirteen years old. In that 
period we have seen a decline in the abundance of both blue and white 
marlin while eliminating almost all landings of marlin by recreational 
and commercial fishermen. International management of billfish has only 
just begun. The ultimate results are very uncertain at this point.
    Both domestic and international management entities seemed to have 
agreed on the problem: longline gear is catching billfish and other 
species at a rate greater than that required to keep the stock in 
equilibrium. Dr. Phil Goodyear believes that the present rate of 
bycatch may be so great that white marlin will be eligible for listing 
as a Category 1 species under CITES unless some international action is 
taken. (It has been reported that some environmental groups here in the 
U.S. are considering a petition under the Endangered Species Act).
    We have learned that the problem is international and cannot be 
solved by simply restricting U.S. activities. That is not to say the 
restrictions at home do not help internationally. They do. But, it is 
to say that a domestic strategy without a clear international strategy 
will only result in the further decline of marlin.
    We have learned that longliners are not a monolith. Longlining in 
the Gulf for yellowfin tuna is different than longlining in the 
Straights of Florida or offshore in the mid-Atlantic. The boats, 
economics, crew styles, what they fish for and how they fish are all 
different. The only thing the same is that the gear used catches 
something in addition to what it is intended to catch. The same can be 
said for the international fleets. The principle difference is that the 
U.S. longline industry is the international leader in conservation of 
both direct and indirect species. Their foreign counterparts have not 
felt the pressure of committed domestic constituencies that will not 
tolerate wasteful bycatch.
    We have learned that the solutions on the table today are not going 
to be adequate to solve the problem. Today, the two remedies of choice 
are to close high bycatch areas and require that all live bycatch be 
returned to the sea. The hotspot approach is only being utilized 
domestically and it is being used on a species by species basis. The 
domestic longline fleet now has closed areas in the Atlantic for 
bluefin tuna, sea turtles and small swordfish. These closures, without 
a corresponding reduction in the fleet, only cause the fishing effort 
to be shifted. Since the data is based on historic catch, there is no 
way to determine the impact on the bycatch of other species. We are 
simply curing today's immediate problem in the hope it will not do too 
much damage somewhere else. Internationally, the U.S. is committed to 
the same approach.
    We have learned that the solutions to our problem are largely based 
on the science at hand. Internationally, ICCAT becomes engaged because 
the scientists identify a problem. Once identified, the scientific 
community develops a solution, and within negotiated parameters, ICCAT 
adopts a series of recommendations to address the problem. The key to 
success is ICCAT's science committee. Without it, the U.S. has only its 
own weight to convince others of the legitimacy of its cause.
HR 1367
    Today we have a new effort at a legislative approach. This bill 
addresses all of the areas of the last bill and, for the most part 
includes many of the understandings reached in the last session. It is 
a valuable tool to focus the Congress, the stakeholders and the 
Administration on this problem. We should recognize that many of the 
provisions of S-1911 were negotiated among the stakeholders and may not 
be necessary or acceptable in this Congress. With that I would like to 
raise a couple of issues of concern and tell the Chairman and 
Congressman Saxton that we are willing to work with them to create a 
bill that can be signed by the President.

    LIssue 1. This bill reduces effort through a voluntary buyout and a 
transfer of quota to a gear type that has no bycatch. The objective is 
laudable, but the reality is that the new gear type is incapable of 
harvesting the transferred quota. The problem is that foreign nations 
hungry for quota are not going to agree to let that amount go to 
conservation. Rather, they will push for an increase in their quota 
with its accompanying bycatch, and the U.S. will have achieved little 
conservation for the effort. If we leave the quota with the remaining 
fleet, we can at least control them.

    LIssue 2. The closed areas in the bill were negotiated last year. 
They should be revisited. To get the maximum biological impact for 
marlin, the current legislative effort should close the NMFS closed 
areas, plus - one in the western Gulf, an area between Cuba and the 
Bahamas, and an area in the mid-Atlantic. If you add these to other 
areas closed to longlining, the impact on the fleet is substantial. 
Therefore we should consider rolling closures that attempt to target 
when the minimal bycatch will occur. As example, a three month closure 
of the Western Gulf of Mexico may minimize the impact on the commercial 
fleet and maximize the benefit to marlins.

    LIssue 3. The research program in the bill should be expanded and 
the program shortened to allow for the use of the results by the fall 
of 2002. The research should focus on one issue, techniques to reduce 
bycatch. They could be gear modifications, rolling closures, fishing 
techniques or any combination of them so long as they reduce bycatch 
domestically and internationally.

What needs to be done?
    The solution of the day for longline bycatch is closed areas. These 
are preferable to eliminating the gear entirely because they mitigate 
the impact on the fishermen while addressing the bycatch problem. The 
United States is using the method liberally, but its acceptance 
internationally is very limited. As we have seen, closed areas can be 
effective remedies for single problems; but since they cause 
displacement and do not reduce effort, something else needs to be done. 
Altering fishing techniques and practices has always been held out as a 
remedy by the commercial industry. Regulations like those recently 
published addressing turtle bycatch may hold some promise, but a 
grander more significant research program needs to be established to 
find methods of reducing bycatch.
    Next year, the United States will have to take the lead in 
developing a marlin recovery plan at ICCAT. If that were today's 
mission, the U.S. would offer international closed areas and require 
the release of all live billfish. Most U.S. scientists do not believe 
such measures will be adequate to recover either white or blue marlin. 
There has to be either a reduction in longline effort or a significant 
improvement in bycatch reduction. The first suggests a moratorium on 
the building of new longline vessels coupled with a buyout, and the 
second suggests some technology or fishing practice changes. The U.S. 
does not have the information necessary to sustain a proposal to 
accomplish any of these proposals.
    In the short term, we need a research program that focuses solely 
on longline bycatch and either develops an acceptable means of 
addressing it or comes to the conclusion that the bycatch is 
unavoidable. All countries can then make the determination of whether 
the result is acceptable.
    Mr. Chairman, thank you for allowing us to present our views.
                                 ______
                                 
    Mr. Saxton. Mr. Panacek?

STATEMENT OF ERNEST PANACEK, PRESIDENT, BLUE WATER FISHERMAN'S 
                          ASSOCIATION

    Mr. Panacek. Thank you, Mr. Chairman. I apologize if this 
oral testimony goes for a little bit too long, but I wanted to 
squeeze a lot in.
    I am disappointed, however, and I hope after the testimony 
and we open this up for discussion that our ICCAT commissioner 
could possibly enter into the discussion. I am disappointed 
that he didn't have the ability to sit beside me here to 
testify because of the serious international implications of 
this bill.
    I don't want him to be made a scapegoat for this domestic 
issue because we need to realize the total picture of the need 
for international conservation.
    My name is Ernie Panacek, but, by marriage, I am also a 
member of the Larson family. Our family is one of several 
prominent Barnegat Light families who for generations have made 
our living from the sea by supplying other Americans with fresh 
seafood. Presently, I am the manager of Viking Village dock, a 
diversified seafood company that also owns and operates pelagic 
longline vessels.
    Barnegat Light fishing families are here today because we 
are afraid and confused. We are afraid because this bill will 
destroy our family businesses and a way of life that is built 
upon sound business practices and sustainable fishing 
principles. We also see our once tight-knit community of 
fishing families--some commercial and some recreational--being 
needlessly torn apart by this bill.
    We are confused because we don't understand why this 
legislation was introduced again. This bill drives a wedge into 
our community that may never heal. It tells our community that 
the living made by one man who sells his catch of fish to feed 
Americans must be stopped so that another man can catch the 
same fish for fun.
    Mr. Chairman, this legislation should not become law 
because it is bad for conservation. If a large part of the mid-
Atlantic Bight is closed during our most productive fishing 
months, our boats will be forced to fish farther south, where 
inevitably we are going to catch more billfish and small 
swordfish, and that is bad for conservation.
    Furthermore, the mid-Atlantic has the most productive tuna 
and swordfish grounds for our fleet of smaller boats. As we are 
forced further south, we will also catch less tuna and 
swordfish and be forced to increase our effort in a futile 
attempt to make up the difference.
    This closure on top of the 3 million square miles of other 
U.S. longline recent closures will prevent the U.S. from 
catching its bycatch swordfish quota. ICCAT will reallocate our 
unused quota to other nations like Japan, Spain, Brazil, and 
Namibia, who frankly could care less about billfish 
conservation and the release of juvenile swordfish bycatch.
    The more quotas these other nations receive as a result of 
us being forced out of our most protective fishing grounds, the 
more billfish and small swordfish will be killed.
    I expect that you want to know why our industry so strongly 
opposed the mid-Atlantic closures this year if we agreed to 
similar measures as a consequence of your arm-twisting last 
year during consideration of the Breaux bill. We did so very 
reluctantly, and we did so primarily because Senator Breaux had 
requested a compromise to deal with your demands.
    By that point, we were convinced that no matter what 
compromise we offered, we would never have the benefit of your 
support. Because we had worked so closely and so hard with a 
coalition of commercial and mainstream recreational groups for 
over 2 years, we also made that concession in order to ensure 
that our industry would not be the ones blamed for killing what 
could have been a great, landmark conservation bill.
    Since then, NMFS has closed huge areas to our boats without 
providing any relief for devastating economic impact on our 
fisherman and families. Our fleet has almost nowhere left to 
fish.
    Today it is crystal clear that our fleet cannot survive 
without the mid-Atlantic during the most productive fishing 
months. We can no longer afford to look the other way on any 
scientifically unjustified closure designed to appease New 
Jersey sport fisherman.
    Each year, despite our efforts, our fleet, using the same 
hooks as the sport fisherman, incidentally catches some white 
marlin in the mid-Atlantic Bight. One hundred percent of these 
fish are returned to the water, almost 75 percent of them 
alive.
    The few white marlin that we inadvertently kill in the 
areas that Mr. Saxton wants to close represent only one-half of 
1 percent of all white marlin reported killed in the Atlantic 
fisheries; 99.5 percent of white marlin mortality occurs 
somewhere else, predominantly by the foreign fleet.
    For every white marlin that our fleet incidentally kills in 
the mid-Atlantic, we catch more than $50,000 worth of food 
fish, mostly yellowfin, bigeye and swordfish. The total annual 
ex-vessel value of our mid-Atlantic longline fishery is greater 
than $8 million, which makes this a very, very productive area.
    Mr. Chairman, another reason this bill should not become 
law is because it will hurt our coastal fishing communities.
    Several years ago, this Committee helped pass the 
Sustainable Fisheries Act. This act requires striking the 
balance between conservation and the preservation of our small 
coastal fishing communities.
    A mid-Atlantic closure would generate the least 
conservation benefit in return for the greatest economic harm. 
This is unbalanced, and it is unfair.
    I expect that you will say that this is why this bill 
provides not one but two buyouts. Mr. Chairman, 10 buyouts 
still wouldn't be good for our community.
    A buyout will only ensure that those who hold the mortgages 
on our boats and homes get paid. Without a fishery, our 
community will be transformed forever from one of self-reliant 
people and a self-sustaining year-round economy to one that is 
totally dependent upon the annual influx of summer tourists. A 
buyout is not going to preserve our community.
    A buyout does nothing good for conservation either. If the 
U.S. fleet is eliminated, longline fishing and longline fishery 
management will be turned over to the nations who have proven 
their disregard for sustainable fisheries conservation.
    If the United States unilaterally removes itself from the 
fishery, it will also remove itself from the table where 
international conservation measures are developed, diminishing 
our influence as a conservation leader.
    Finally, Mr. Chairman, I ask you and the other members to 
look at the chart at the end of my written testimony, and there 
you will see how the catch of white and blue marlin has 
increased more than 100 percent in the three largest 
recreational billfish tournaments in the mid-Atlantic region in 
the 4 years for which I have data. What this chart tells you is 
that the longline fisherman are not degrading the recreational 
fishing experience in these mid-Atlantic tournaments, nor are 
they affecting the incredibly rapid growth of the recreational 
fishing industry.
    Our commercial and recreational fisheries can coexist and 
thrive as they have for generations without these closures or 
the other divisive measures in this bill. It is foolhardy for 
the U.S. to adopt a policy that turns our commercial fisheries 
and fisheries management over to other nations who will do a 
terrible job of conservation.
    It does not make sense to turn our strong U.S. market for 
swordfish and tuna completely over to foreign nations to 
supply, and it does not make sense to reduce our nation's 
fishing industry to nothing more than a sport. It is not good 
for conservation, it is not good for our fishing communities, 
and it is just not good for this country.
    Mr. Chairman, obviously our families have long-term 
interests in the sustainability of these fisheries. We have 
been doing this for generations. We are the conservationists, 
and we want a sustainable fishery. The record shows that it was 
U.S. pelagic longline industry that made it possible for the 
U.S. to successfully negotiate the rebuilding plans for 
swordfish and white and blue marlin at ICCAT over the past few 
years.
    We have supported all manner of scientific research on our 
fishery and have provided an incredible amount of volume of 
data to the government, certainly far more than our 
recreational counterparts. Yet our reward for this exemplary 
record of contributing to conservation is the unilateral 
stepwise extermination of our industry by our government. Why? 
Is it because we have been successfully demonized by a handful 
of well-funded sport fishing and so-called conservation groups?
    This bill would do nothing more than bring us one more step 
closer to our grave. Longline vessels and the families from 
many other coastal fishing communities, such as Ocean City, 
Maryland, Wanchese, North Carolina, and Venice, Louisiana, 
would tell you the same story.
    If the best interests of America's fishermen are not to be 
respected, perhaps others will be concerned that this bill also 
pits the interests of commercial fishermen and their 
communities from one state against the interests of sport 
fishermen from another.
    I urge you not to pass this legislation.
    Mr. Chairman, my written testimony contains several 
constructive suggestions for alternative actions this Committee 
and its' members could take to contribute to Atlantic HMS 
fisheries' conservation and the health of our industry. These 
alternatives include support for Congressman Shaw's legislation 
to provide emergency relief for Florida fisherman thrown out of 
business by the National Marine Fisheries Service final rule.
    Mr. Saxton. Excuse me, Mr. Panacek, we try to operate here 
under a 5-minute rule, and you are now over 11 minutes. So if 
you could summarize, we would appreciate it.
    Mr. Panacek. Yes, Mr. Saxton. I have about 1 minute.
    Mr. Saxton. Thank you.
    Mr. Panacek. We recommend focusing on the huge 
international conservation problems we have at ICCAT, including 
the lack of foreign compliance, illegal foreign fishing, and 
the continued importation of ICCAT illegal fish into the U.S. 
market. We need to move away from this constant bashing of U.S. 
commercial fishermen who for years have been doing everything 
humanly possible and technologically possible to improve 
conservation.
    We are not the problem. Instead, let's start focusing on 
the real problems: foreign fisheries. Achieving ICCAT 
compliance would eliminate the animosities that plague our 
domestic fisheries.
    Thank you for your consideration.
    [The prepared statement of Mr. Panacek follows:]

   Statement of Ernie Panacek, General Manager, Viking Village, Inc.

    Mr. Chairman, thank you for this opportunity to testify before your 
subcommittee today. Please forgive me if much of my testimony is 
directed toward my good friend and Congressman, Mr. Jim Saxton, who is 
the author of the legislation that we are here to discuss.
    I am very disappointed that our ICCAT Commissioner was not 
permitted to testify alongside of me concerning the serious 
international implications of this bill. He should not be made to be 
the scapegoat for our disagreements in New Jersey. I have attached a 
copy of a memo prepared by our ICCAT Commissioner at Congressman Jones' 
request which includes a discussion of the negative consequences of 
this legislation on the international management of highly migratory 
species.
    My name is Ernie Panacek, but by marriage I am also a member of the 
Larson Family. Our family is one of several prominent Barnegat Light 
families who for generations have made our living from the sea by 
providing fresh seafood to other Americans. Presently, I am the manager 
of Viking Village fish dock, a diversified seafood company that also 
owns and operates pelagic longline fishing vessels that harvest 
swordfish, tunas and sharks from the mid-Atlantic bight.
    Barnegat Light fishing families are here today because we are 
afraid and confused. We're afraid because this bill will destroy our 
family businesses and way of life that is built upon generations of 
sound business practices and sustainable fishing principles. We also 
see our once tight-knit community of fishing families some commercial 
and some recreational being needlessly torn apart by this bill.
    We're confused because we don't understand why this legislation was 
introduced. This bill drives a wedge into our community that may never 
heal. This bill tells our community that the living made by one man who 
sells his catch of fish to feed his family must be stopped so that 
another man can catch the same fish for fun.
    These families are also here to ensure that I do a good job of 
telling you why this legislation should not become law. I'll do my 
best.
This legislation should not become law because it is bad for 
        conservation.
    There are others here today that can explain the science far better 
than I, but no one is here today who knows better than I that if you 
close a large part of the Mid-Atlantic Bight during our most productive 
months of fishing for tuna and swordfish, that our boats will be forced 
to fish further to the south. We can't go north or to the east because 
most of our boats are not big or safe enough for distant water fishing. 
Many can't even carry enough fuel to get to those fishing grounds. 
We'll be forced to go south, and when we go south, particularly below 
Cape Hatteras, we will catch more billfish and small swordfish, and 
that's bad for conservation.
    I can also tell you that the Mid-Atlantic Bight includes the most 
productive tuna and swordfish grounds for my fleet within the EEZ. If 
we have to fish further south, we will catch less tuna and swordfish on 
the same number of hooks. Some boats may be able to add a few hooks to 
try to make up for the difference, but overall we are sure to catch 
less tuna and swordfish than we do now. Why is that bad for 
conservation? A Mid-Atlantic closure, on top of the nearly 3 million 
square miles of longline closures NMFS put into effect earlier this 
year, will forever prevent the United States from using a substantial 
portion of its north Atlantic swordfish quota allocated by ICCAT. This 
quota will not go unused. It will be reallocated by ICCAT to other 
nations like Japan, Spain, Brazil and Namibia who, frankly, could care 
less about billfish conservation or releasing juvenile swordfish 
bycatch. The more ICCAT quotas these nations ultimately get as a result 
of this bill, the more billfish and small swordfish will be killed.
    I expect Mr. Saxton wants to know why our industry so strongly 
opposes his Mid-Atlantic closures this year if we reluctantly agreed to 
similar measures because of his arm-twisting during consideration of 
the Breaux Bill last year. Well Mr. Saxton, that was then and this is 
now. The context is completely different.
    First and foremost, Senator John Breaux, the Senate champion of our 
legislation asked us to offer some compromise so that he could 
accommodate Mr. Saxton's and Senator Torricelli's demands. These 
demands were to close the Mid-Atlantic Bight or they would block the 
bill. We very reluctantly offered a compromise for two reasons. First, 
by that point in time we were all thoroughly convinced that no matter 
what compromise we offered, neither Mr. Saxton nor Mr. Torricelli would 
give their support to the bill. Second, because we had worked so 
closely and so hard with a coalition of commercial and mainstream 
recreational groups for over two years, we wanted to make sure that our 
industry would not be blamed for killing what could have been a 
landmark conservation bill.
    Since then, our world has changed and the opportunity to achieve 
the balance of the Breaux bill has been lost. Since then, NMFS has 
closed nearly 3 million square miles of the Atlantic to our boats 
without providing any relief for the devastating economic impact on our 
fishermen and families. Today, the remaining fleet has almost nowhere 
left to fish. We wonder if that is the true goal of the Saxton Bill.
    Today, it is crystal clear that our fleet cannot survive without 
the Mid-Atlantic during the most productive fishing months. We can no 
longer afford to look the other way on any scientifically unjustified 
closure designed to appease some NJ sportfishermen. Our experience last 
year taught us a bitter lesson. We now know that even our own 
representatives in Congress will rebuff any repeat of our constructive 
attempt to promote conservation in an unprecedented coalition with the 
mainstream recreational fishing industry.
    Mr. Chairman, another important reason this bill should not become 
law is because it will hurt our coastal fishing communities. Several 
years ago this Committee helped pass the Sustainable Fisheries Act, 
which made substantial revisions to the Magnuson-Stevens Act, the 
cornerstone of our national fishery policy.
    Among other things, the Sustainable Fisheries Act set forth the 
fundamental US fishery policy that an appropriate balance must be 
achieved between conservation objectives and the preservation of the 
social and economic viability of our small coastal fishing communities. 
Perhaps I've already said enough about just how bad this bill is for 
the social and economic fabric of our small community. But, maybe just 
a few more statistics will drive the point home.
    Each year, despite our best efforts, our fleet incidentally catches 
some white marlin in the Mid-Atlantic Bight. One hundred percent of 
these fish are returned to the water, nearly 75% are returned alive. 
The few white marlin that we inadvertently kill in the mid-Atlantic 
closures proposed in this legislation represent less than one-half of 
one percent (0.005) of all the white marlin reported to ICCAT to be 
killed in the Atlantic fisheries. More than ninety-nine point five 
(99.5) percent of white marlin killed in the Atlantic fisheries are 
killed outside of the proposed Mid-Atlantic Bight closures, the vast 
majority by foreign fishermen.
    Mr. Chairman, for every white marlin that our fleet accidentally 
kills in the Mid-Atlantic Bight region, our fishery catches more than 
$57,061 worth of food fish, mostly yellowfin and bigeye tuna as well as 
swordfish. The total annual ex-vessel value of our Mid-Atlantic 
longline fishery is about $8 million. This is a very productive fishing 
area with a relatively minimal amount of billfish bycatch.
    Mr. Chairman, a Mid-Atlantic closure would generate the least 
conservation benefit in return for the greatest economic harm a result 
completely contrary to sound fisheries management. For this reason, 
this bill should not become law. It does not achieve an appropriate 
balance between conservation objectives and the socio-economic needs of 
our coastal fishing communities. In fact, it is incredibly unfair.
    I expect that my good friend, Mr. Saxton, will respond by telling 
us that this is why his bill provides for not one, but two buyouts. Mr. 
Chairman, ten buyouts still wouldn't be good for our community. A 
buyout does nothing for fishery-based communities except make sure that 
those that hold the mortgages on our boats and homes get paid. Without 
our fishery, our community will be transformed forever from one 
composed of self-reliant people and a self-sustaining year-round 
economy, to one that is totally dependent upon the annual influx of 
summer tourists and residents who come to lie on the beach or sport 
fish for three months of the year. Ironically, I have personally 
surveyed many of these tourists and one of the reasons they come to 
Barnegat Light is to experience the atmosphere of a real commercial 
fishing community. I have no idea what our community will do or become 
for the remaining nine months, but a buyout does not provide an 
alternative.
    A buyout does nothing good for conservation either. As I've tried 
to explain, if you eliminate the US fleet, the management of such 
fisheries will be turned over to nations that have proven their 
disregard for sustainable fishery conservation. As I'm sure our ICCAT 
Commissioner would confirm, if we unilaterally remove ourselves from 
the fishery, we will also unilaterally remove ourselves from the table 
where international conservation measures are developed at ICCAT.
    Finally, Mr. Chairman, I ask you and the other Members to look at 
the chart at the end of my testimony. There you will see how the catch 
of white and blue marlin has increased each year in the three largest 
recreational billfish tournaments in the Mid-Atlantic region. This 
increase is more than 100% in the four years for which I have the data. 
I hope this makes clear the point that our longline fishermen are 
obviously not degrading the recreational fishing experience in these 
Mid-Atlantic tournaments! I hope it also gives some indication of how 
recreational fishing effort and catch is growing by leaps and bounds in 
this country.
    Our commercial and recreational fisheries can coexist and thrive as 
they have for generations without the need for any closures. It just 
doesn't make sense for the US to adopt a policy that turns our 
commercial fisheries and fisheries management over to other nations who 
will do a terrible job of conservation, it doesn't make sense to turn 
our strong market for swordfish and tuna completely over to foreign 
nations to supply, and it doesn't make sense to reduce our nation's 
fisheries to nothing more than a sport. It's not good for conservation, 
it's not good for our fishing communities, it's just not good for this 
country.
    But that is where things seem to be going, Mr. Chairman. Obviously, 
our families have a long-term interest in the sustainability of these 
fisheries we've been doing this for generations. We are 
conservationists. We want a sustainable fishery. As our ICCAT 
Commissioner will tell you, it was the US pelagic longline industry 
that made it possible for him to successfully negotiate the 
conservation rebuilding plans for swordfish, white marlin and blue 
marlin at ICCAT over the past few years.
    We have supported all manner of scientific research on our fishery 
and have provided an incredible volume of data to the government on our 
activities far more than any other fishery for tuna and swordfish. Yet 
our reward for our exemplary record of conservation and cooperation 
with US fishery conservation objectives is the unilateral stepwise 
extermination of our industry by our own government. Why ? Is it 
because we have been successfully demonized by a handful of well-funded 
recreational and so-called conservation groups? This bill would simply 
bring us one more step closer to our grave.
    Mr. Chairman, in addition to our concerns with a Mid-Atlantic 
closure, there are several other concerns we have with this bill.
    (1) The bill would appear to impose a lifetime ban on any fishermen 
who accepts a buyout under this bill from ever being a longline 
fisherman again. I have never seen anything like this before. Our 
fishery is already the subject of a strict limited access system. If 
the longline permits and/or vessel itself are permanently retired under 
a buyout, why in the world would Congress want to prevent a fishermen 
from ever being a fishermen again ? If a longline fishermen with a 
permit wants to sell that permit to a fishermen that accepted the 
buyout so that he can get back into the fishery someday, why would that 
be a problem ? It would not increase the number of permits or boats or 
fishing effort in the fishery. It would not affect conservation 
whatsoever. Is the idea to punish our fishermen ? Would this be 
Constitutional?
    (2) Another provision of this bill would appear to arbitrarily 
reallocate longline swordfish quota to the ``hand-gear'' category. As I 
understand it, the hand-gear category includes both harpoon fishermen 
and recreational fishermen. It may not be unprecedented, but it would 
certainly be unusual for Congress to preempt the normal authority and 
procedures of NMFS to allocate US swordfish quota among different US 
fishermen. More importantly, this provision would guarantee that more 
US quota would go unused and be reallocated to foreign fishing nations. 
This is because neither the old swordfish harpoon fishery nor the 
recreational swordfish fishery has ever harvested more than about 10 
percent of the US swordfish quota. This is unlikely to change. As I've 
explained, the reallocation of unused US swordfish quota to foreign 
fishing nations will have a negative impact on the conservation of 
swordfish, tuna and billfish.
    (3) Among the many other flawed parts of this bill is the notion 
that a ``pelagic longline fishing vessel capacity reduction program'' 
is necessary. This fishery is not overcapitalized and is not in need of 
capacity reduction. In fact, this fishery is already undercapitalized, 
especially since the NMFS time-area closures put so many southern 
fishermen out of business earlier this year. As a consequence, this 
fishery is not able to fully utilize its ICCAT swordfish quota.
    Prior to those closures, NMFS had reported the capacity in this 
fishery had fallen from 250 to 140 fulltime vessels. Today, we estimate 
that there are less than 100 active fulltime pelagic longline vessels 
in the US Atlantic fleet. The University of Miami did a recent study 
concluding that the optimal fleet size to utilize our ICCAT swordfish 
quota would be approximately 160 active vessels. To reiterate, this 
fishery is substantially undercapitalized. The provisions of this bill 
appear to ignore this fact.
    Mr. Chairman, longline vessels and the families that own and 
operate them are not just from Barnegat Light, but are a fundamental 
part of many coastal fishing communities in America such as Ocean City, 
Maryland, Wanchese, North Carolina and Venice, Louisiana. Fishing 
families from those communities could tell you the same story. I urge 
you not to pass this legislation.
    Fortunately, there are a number of constructive alternatives to 
this legislation that our industry would like to suggest to the 
Committee for their consideration. I believe these alternatives could 
provide substantial benefits to conservation and our industry.
    (1) LSupport the initiative of Congressman Clay Shaw and others in 
the Florida Delegation to secure emergency financial assistance to 
those vessel owners and shoreside enterprises that were summarily 
forced out of business by the NMFS time-area closures implemented 
earlier this year off the coasts of South Carolina, Georgia and 
Florida, and in the Gulf of Mexico. It is rare for NMFS to take the 
draconian step to completely close a substantial fishery and thereby 
force fishermen completely out of business. Without getting into the 
merits of these closures, it is even more unusual for Congress not to 
step in and provide some form of relief to those fishermen and 
businessmen whose livelihoods have been sacrificed in the name of 
fishery conservation.
    (2) LDevelop legislation to prohibit the importation of fish caught 
by foreign fishermen in excess of ICCAT quotas or otherwise caught in 
violation of ICCAT conservation regulations. Currently, with the sole 
exception of undersized swordfish, the US Customs is powerless to 
prevent the entry of such ICCAT illegal fish. Although many of the 
necessary product-tracking capabilities are already in place, there is 
apparently no US law that prohibits foreign fishermen from exporting 
such fish into the US. Legislation can and should be developed that is 
consistent with the extensive multilateral conservation regulations and 
principles of both ICCAT and the Food and Agriculture Organization 
(FAO) to stop once and for all the US providing a ``black market'' for 
ICCAT illegal fish. I encourage the members of this committee to find 
the courage to take this step to ensure that the U.S. market cannot be 
used to benefit non-compliance with international fishery conservation 
and management programs. Our fishermen are responsible for only a minor 
percentage of the overall Atlantic-wide harvest of these international 
species. Ensuring compliance with the international conservation 
program is our only hope for someday achieving the maximum sustainable 
harvest level from some of these overfished resources.
    (3) LA lack of compliance with ICCAT regulations is a real problem 
with many ICCAT member nations. The European Union nations are among 
the most problematic at ICCAT. Many of their actions have seriously 
undermined the effectiveness of ICCAT, its science and its conservation 
regulations. The US Commissioners have launched a large-scale emergency 
initiative to deal with the EU problems at ICCAT that will lead to 
better conservation. They have strong support in the Senate and within 
the Department of State. They also need the strong support and 
assistance of this Committee.
     LThere is also a large fleet of pirate longline vessels operating 
in the Atlantic that do not belong to ICCAT and are not subject to any 
conservation regulations whatsoever. There is a large effort underway 
through ICCAT and the FAO to combat this illegal and unreported fishing 
that completely undermines ICCAT conservation goals. Our ICCAT 
Commissioners, our State Department, and our Commerce Department all 
need the help and support of this Committee to address this problem.
     LIn fact, perhaps the most constructive contribution this 
Committee could make toward solving the international conservation 
issues at ICCAT would be to hold a hearing on the EU and other ICCAT 
management problems. Such a hearing would help call attention to this 
matter in Congress and help encourage high-level officials in the Bush 
Administration to pursue diplomatic solution with the EU. Demonizing 
American fishermen is a complete waste of time and is counterproductive 
to solving these international problems. We need to focus on the 
international issues where 95% of the fishery occurs and where nearly 
all of the conservation problems originate.
    Mr. Chairman and Members of the Subcommittee, thank you for 
allowing me to testify. I hope that you will find the courage to ``do 
the right thing'' and not allow the Saxton Bill to move forward.
    Our fishermen continue to be the world's leaders toward truly 
effective international recovery of these important fish to benefit all 
stakeholders and our future generations. If you have any questions or 
need more information on these issues, please contact Glenn Delaney who 
is our U.S. ICCAT Commercial Commissioner, Nelson Beideman who is 
BWFA's Executive Director, or myself.
    Thank you for your consideration.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.005
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.006
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.007
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.008
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.009
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.010
                                 
    Mr. Saxton. Thank you very much.
    Mr. Scott?

   STATEMENT OF GERRY SCOTT, DIRECTOR, SUSTAINABLE FISHERIES 
          DIVISION, NATIONAL MARINE FISHERIES SERVICE

    Dr. Scott. Thank you. Good morning, Mr. Chairman and 
members of the Subcommittee.
    My name is Gerald Scott. I am director of the Sustainable 
Fisheries Division of the National Marine Fisheries Services' 
Southeast Fisheries Science Center in Miami, Florida. I am also 
functioning as the U.S. lead scientist to ICCAT.
    Thank you for the opportunity to testify today on H.R. 
1367, the Atlantic Highly Migratory Species Conservation Act.
    I have been requested by the Subcommittee to offer views on 
how the Southeast Fisheries Science Center helps manage the 
pelagic longline fishery through research, data collection, and 
analysis, and on the bill's new research program, on the use of 
VMS and how the measures taken in the legislation will affect 
stocks of highly migratory species throughout the Atlantic.
    The Southeast Fisheries Science Center has lead 
responsibility for scientific investigations into the biology 
and fishery productivity of Atlantic highly migratory species. 
These investigations are carried out in support of the U.S. 
scientific commitment to the International Commission for the 
Conservation of Atlantic Tunas, and in support of our domestic 
highly migratory species fishery management demands.
    Our primary responsibilities for highly migratory species 
are to monitor catch and effort of U.S. Atlantic fisheries 
affecting the stocks, to conduct stock assessments on highly 
migratory species stocks, and to conduct biological research on 
the stocks in support of these stock assessments. Through these 
research, data collection, and monitoring activities, we 
provide advice on the sustainable harvest levels, and on the 
likely range of impact on the stocks of various future 
management measures considered for application to highly 
migratory species fisheries, including the U.S. Atlantic 
pelagic longline fishery.
    These tasks require collaboration and coordination with 
other NMFS research and management offices, and also require 
frequent interactions with other Federal, state, academic, and 
private institution scientists, as well as coordination with 
scientific consultants to the various U.S. HMS fishery 
constituencies.
    Our research direction is guided by recommendations made by 
ICCAT and by the U.S. ICCAT advisory Committee. With increasing 
frequency, Atlantic HMS research is also conducted through 
appropriation pass-through funding and through funding of 
competitive research activities.
    Each year, our U.S. HMS research and monitoring activities 
are reported upon in the U.S. national report to ICCAT.
    Research into gear of fishing pattern modifications which 
could mitigate the impact of pelagic longlines on bycatch 
species while at the same time minimizing the impact on the 
fishery is of high priority. The program identified within the 
bill would certainly enhance our research capabilities for 
evaluating bycatch mitigation measures.
    Due to past reductions in research funding for billfish and 
other HMS investigations within the SEFSC, the program 
identified in the bill would permit reestablishing staffing to 
levels that would allow fuller conduct of billfish research 
within the SEFSC.
    Investigations into gear modifications for reducing 
billfish mortality have in fact been initiated. Preliminary 
results indicate that the use of circle hooks can be a 
promising means of reducing billfish and other species bycatch 
mortality. However, the number of observations from which to 
draw inference are low and direct experimental applications 
within the fleet have not yet been conducted to permit drawing 
scientific conclusions that their application by the industry 
would result in lower billfish mortality while minimizing the 
impact on target species catches.
    Research on methods to reduce sea turtle interactions with 
the U.S. pelagic longline fleet fishing on the Grand Banks has 
also been initiated. The experimental design for this research 
was developed in consultation and collaboration with other 
scientists investigating methods of reducing sea turtle 
interactions with pelagic longline vessels fishing from Hawaii 
and with pelagic longline fishers involved in the Grand Banks 
fishery.
    From a scientific perspective, the use of vessel monitoring 
systems on board pelagic longline vessels could provide for 
finer spacial and temporal resolution for catch and effort data 
collection than is custom or requirement.
    ICCAT has in fact asked for scientific advice on times and 
areas of fish concentrations that might be restricted to 
fishing as a way to promote recovery for over-fished species. 
Such advice has been requested for juvenile swordfish and it is 
anticipated that SCRS, which is the Standing Committee for 
Research and Statistics, will report its findings to ICCAT at 
its 2002 meeting.
    Inasmuch as the typical spatial resolution of the 
international catch effort data reported to ICCAT is a 5 degree 
Latitude by 5 degree Longitude level, the scientific advice 
that can be provided may be at too coarse a scale for the 
Commission's use in development of time-area closures. SCRS has 
recommended collection and reporting of finer scale catch 
effort data to support these types of analyses.
    Broad-scale application of VMS in the international fleet 
could promote such data collection and reporting schemes. It 
should be noted, though, that the U.S. has made use of fine-
scale--that is, 1 degree by 1 degree--information from logbooks 
in evaluating time-area closures for management of the U.S. 
fleet in the absence of VMS.
    Fishery management measures taken in the legislation that 
in my view have the most direct potential effects on HMS are 
the time-area closures and the vessel buyout provisions.
    As indicated in Dr. Hogarth's testimony, estimates of 
impact of the time-area closure provisions on U.S. catches of 
various species could range from a few percentage point 
reductions to the same magnitude increases, depending on the 
behavior of the fleet in reaction to the time-area closure.
    The odds of the closures resulting in reductions in catch 
are improved if coupled with the fishing effort reduction 
mechanism, such as outlined in the bill. While even slight 
reductions in catch can provide conservation benefit to the 
species stocks affected, it is very unlikely that the change of 
magnitudes anticipated resulting from the time-area closures 
described in the bill could be detected in any stock assessment 
since the signal to noise would be quite small in this case.
    The effort reduction measures could result in larger 
impacts, which might be more easily measured in the context of 
stock assessments, but those too depend on the magnitude of the 
effort removed from the fleet.
    Both effort reduction and time-area restrictions for 
various components of that Atlantic HMS fisheries are in place 
and under further consideration by ICCAT as management tools. 
The time-area and effort reduction measures outlined in the 
bill are consistent with management measures undertaken by 
ICCAT member parties.
    Thank you, Mr. Chairman for the opportunity to testify. I 
look forward to answering any questions you or other members 
may have.
    [The prepared statement of Mr. Scott follows:]

 Statement of Gerald P. Scott, Ph.D., Director, Sustainable Fisheries 
Division Southeast Fisheries Science Center, National Marine Fisheries 
    Service, National Oceanic and Atmospheric Administration, U.S. 
                         Department of Commerce

    Good morning, Mr. Chairman and members of the Subcommittee. I am 
Dr. Gerald Scott, Director of the Sustainable Fisheries Division of the 
National Marine Fisheries Service's Southeast Fisheries Science Center 
in Miami, Florida. I also function as the U.S. Lead Scientist for the 
International Commission for the Conservation of Atlantic Tunas 
(ICCAT). Thank you for the opportunity to testify today on H.R. 1367, 
the Atlantic Highly Migratory Species (HMS) Conservation Act.
    I have been requested by the Subcommittee to offer my views.on how 
the Southeast Fisheries Science Center helps manage the pelagic 
longline fishery through research, data collection, and analysis. I 
have also been requested to provide views on the new research program 
and the use of vessel monitoring systems (VMS) as proposed in H.R. 
1367; how the measures taken in the legislation will affect stocks of 
highly migratory species throughout the Atlantic; what conservation and 
management measures are currently in place through the International 
Commission for the Conservation of Atlantic Tunas; and what measures in 
H.R. 1367 could be used internationally to help rebuild highly 
migratory species. In subsequent sections, my views are provided on 
these topics.
Southeast Fisheries Science Center HMS Research and Monitorinq
    The NMFS Southeast Fisheries Science Center (SEFSC) has lead 
responsibility for scientific investigations into the biology and 
fishery productivity of Atlantic HMS species. These investigations are 
carried out in support of the U.S. scientific commitment to the 
International Commission for the Conservation of Atlantic Tunas and in 
support of our domestic HMS fishery management demands. Our primary 
responsibilities for HMS are to monitor catch and effort of U.S. 
Atlantic fisheries affecting these stocks, to conduct stock assessments 
on HMS stocks, and to conduct biological research on these stocks in 
support of stock assessments. Our stock assessment research involves 
integration of available information on the biological characteristics, 
fishery harvesting, and environmental effects on HMS. populations for 
the purpose of providing scientific advice on the effects and 
sustainable fishing levels for these resources. The outcomes of stock 
assessments are also used to project the likely impacts of different 
fishery management scenarios on the HMS populations and fisheries of 
concern.
    These tasks require collaboration and coordination with other NMFS 
research and management offices and also require frequent interactions 
with other Federal, state, Academic, and Private Institution scientists 
as well-as coordination with scientific consultants to the various U.S. 
HMS fishery constituencies.
    Our activities undertaken in monitoring the range of HMS fisheries 
include collection of basic fishery catch, effort, and size frequency 
statistics (via port agents and some specialized sampling programs), 
within season tracking of landings (e.g., quota monitoring of 
swordfish, bluefin tuna, and large coastal sharks), sampling and 
estimation of recreational harvests of HMS species (through statistical 
sampling programs administered from NMFS Headquarters, e.g., Large 
Pelagic Survey, LPS, and Marine Recreational Fishing Statistics Survey, 
MRFSS), implementation and management of fishing logbook programs 
(e.g., Atlantic Pelagic Logbooks), implementation and management of the 
cooperative tagging program, and collection of by-catch statistics 
through logbooks and fishery observer programs.
    SEFSC scientists take on lead roles for development of methods for 
and the conduct of international and domestic stock assessments of 
Atlantic HMS species stocks. U.S. Atlantic HMS research activities have 
evolved and diversified through a process of consultative reviews and 
planning discussions with scientists, fisheries managers, industry and 
conservation community concerns. Our research direction is also guided 
by recommendations made by ICCAT and by the U.S. ICCAT Advisory 
Committee. With increasing frequency, Atlantic HMS research is also 
conducted through appropriation pass-through funding and through 
funding of competitive research activities.
    Annually, U.S. HMS research and monitoring activities are reported 
upon in the U.S. National Report to ICCAT. In the past few years, this 
research has focused on multiple fronts including: methodologies to 
determine the genetic discreetness of large pelagic fishes in the 
Atlantic; conduct of larval surveys for bluefin tuna and other large 
pelagics in the Gulf of Mexico; development of robust estimation 
techniques for population analyses; approaches for characterization of 
uncertainty in assessments and methods for translating that uncertainty 
into risk levels associated with alternative management approaches; 
continued coordination efforts for the ICCAT Enhanced Research Program 
for Billfish and for the Bluefin Year Program; conduct of the 
Cooperative Tagging Center which tracks tagging and recovery of tagged 
billfishes (swordfish, marlins and sailfish) and tunas; application of 
high technology, electronic tags for the purposes of investigating 
migratory patterns and habitat use of various species; as well as 
conduct of cooperative research with scientists from other nations on 
development of assessment methodologies, on biological investigations 
and on development of indices of abundance for species of concern to 
ICCAT.
New Research Proqram
    This bill would establish within the National Marine Fisheries 
Service at the Southeast Fisheries Science Center, a Pelagic Longline 
Billfish Bycatch and Mortality Reduction Research Program to identify 
and test a variety of fishing gear configurations and uses for reducing 
highly migratory species mortality and sea turtle mortality in the 
exclusive economic zone of the United States in the Atlantic Ocean. 
Research into gear or fishing pattern modifications which could 
mitigate the impact of pelagic longlines on bycat.ch species while at 
the same time, minimize impact on the fishery, is of high priority. The 
program identified within the bill would certainly enhance our research 
capabilities for evaluating bycatch mitigation measures. Due to past 
reductions in research funding for billfish and other HMS 
investigations within the SEFSC, the program identified in the bill 
would be useful in reestablishing staffing to levels that would permit 
fuller conduct of billfish research within the SEFSC. Some 
investigations into gear modifications for reducing billfish mortality 
have been initiated. For example, the use of circle hooks as a means of 
reducing the mortality of marlins compared to the use of other hook 
types using both direct at-sea observation and through electronic tag 
applications have provided promising preliminary results. The number of 
observations from which to draw inference are low and direct 
experimental applications within the fleet have not yet been conducted. 
to permit drawing scientific conclusion that their application in the 
industry would result in lower billfish mortality, while minimizing 
impact on target species catches. Research on methods to reduce sea-
turtle interactions with U.S. pelagic longline gear fishing on the on 
the Grand Banks (an area, outside the U.S. EEZ, of relatively high sea 
turtle interactions, but relatively low marlin interactions) has been 
(in fiscal year 2001) initiated at the SEFSC. The experimental design 
for this research was developed through several workshops and in 
consultation and collaboration with NOAA Fisheries scientists 
investigating methods of reducing sea turtle interactions with pelagic 
longline vessels fishing from Hawaii, and with pelagic longline fishers 
involved in the fishery. Field experiments, conduced in cooperation 
with fishers active in the fishery, are scheduled to begin in late 
August or September. Due to the relatively rare event nature of 
interactions with sea turtles on a per day fishing basis, the number of 
days fishing that need be observed to measure impacts of the gear 
modifications with a reasonable degree of certainty is relatively 
large, which translates into high costs for conducting this research. 
Marlins are also a relatively rare event, on average, in the catch of 
the U.S. pelagic longline fleet.
Use of VMS
    From a scientific perspective, the use of vessel monitoring systems 
on board pelagic longline vessels could provide for finer spatial and 
temporal resolution for catch and effort data collection than is the 
current custom or requirement. With greater resolution comes the 
possibility of refining estimates of how and when fishing effort and 
catch occurs. This, in turn, could lead to.greater ability to evaluate 
fishing success relative to fine-scale at-sea environmental information 
and investigations into the affects of these features on the 
catchability and relative abundance of HMS species.
    ICCAT has requested scientific advice for a number of species 
stocks on times and areas of high fish concentrations that might be 
restricted to fishing as a way to reduce fishing mortality rates for 
overfished species. Such advice has been requested for juvenile 
swordfish and it is anticipated that SCRS will report its findings to 
the Commission at its 2002 meeting. In as much as the typical spatial 
resolution of the international catch-effort data reported to ICCAT is 
at a 5 Latitude x 5 Longitude level, the scientific advice that could 
be provided may be at too coarse a scale for the Commission's use in 
development of time-area closures. The Standing Committee on Research 
and Statistics of ICCAT has recommended collection and reporting of 
finer scale catch-effort data to support these types of analyses. 
Broad-scale application of VMS in the international fleet could promote 
such data collection and reporting schemes. It should be noted, though, 
that the U.S. has made use of finer-scale (typically 1 x 1 catch effort 
information from daily logbook set records) in evaluating possible 
time-area closures for management of the U.S. fleet in the absence of 
VMS.
How the measures taken in the legislation will affect stocks of highly 
        migratory species throughout the Atlantic and their use 
        internationally to help rebuild highly migratory species
    In my view, the fishery management measures taken in the 
legislation that have the most direct potential effects on HMS are the 
time-area closures and the vessel buy-out provisions. As indicated in 
Dr. Hogarth's testimony, estimates of impact of the time-area closure 
provisions on U.S. catches of various species could range from 
relatively small (a few percentage points) reductions to relatively 
small increases depending on the behavior of the fleet in reaction to 
the time-area closures. The odds of the closures resulting in 
reductions in catch are improved if coupled with a fishing effort 
reduction mechanism such as outlined in the bill. While even slight 
reductions in catch can provide conservation benefit to the species 
stocks affected, it is very unlikely that change of the magnitudes 
anticipated resulting from the time-area closures described in the bill 
could be detected in any stock assessments since the signal to noise 
would be quite small. The effort reduction measures could result in 
larger impacts which might be more easily measured in the context of 
stock assessments, depending on the magnitude of effort removed.
    Both effort reduction and time-area restrictions for various 
components of the Atlantic HMS fisheries are in place and under further 
consideration by ICCAT as management tools. The time-area and effort 
reduction measures outlined in the bill are consistent with management 
measures undertaken by ICCAT Member parties.
What conservation and management measures are currently in place 
        through the International Commission for the Conservation of 
        Atlantic Tunas?
    ICCAT's website (www.iccat.es) maintains a current listing of the 
conservation and management measures currently in place and agreed to 
by the Member Parties. The conservation and management measures vary by 
stock, but include management tools such as size limits, catch quotas, 
time-area closures, and other measures. Attached in an appendix (pdf 
from the ICCAT web site) is a summary of these measures through 1999.
    Mr. Chairman, thank you for the opportunity to present testimony. I 
would be happy to respond to questions.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.011
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.012
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.013
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.014
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.015
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.016
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.017
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.018
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.019
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.020
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.021
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.022
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.023
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.024
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.025
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.026
                                 
    Mr. Saxton. Thank you, Mr. Scott.
    Mr. Donofrio?

      STATEMENT OF JAMES A. DONOFRIO, EXECUTIVE DIRECTOR, 
                 RECREATIONAL FISHING ALLIANCE

    Mr. Donofrio. Good morning. Thank you, Mr. Chairman.
    My name is Jim Donofrio, and I am the executive director of 
the Recreational Fishing Alliance, also known as the RFA.
    I want to thank you, Mr. Chairman and members of the 
Subcommittee, for inviting me here today to testify on H.R. 
1367, the Atlantic Highly Migratory Species Conservation Act of 
2001.
    H.R. 1367, introduced by you, Mr. Chairman, is the 
legislative remedy needed to reduce the number of pelagic drift 
longlines in the Atlantic EEZ and Gulf of Mexico. It is 
imperative that Congress makes clear its commitment to remove 
this destructive gear from our nation's waters.
    Under the current regulations finalized by the National 
Marine Fisheries Service, the closed areas for highly migratory 
species are under fire by numerous and disparate lawsuits. 
These lawsuits have been filed by all sectors of the fishery: 
the longliners, some recreational groups, and some 
environmental groups--all looking for a different outcome.
    When management by lawsuit becomes the way fisheries are 
handled in this country, it is time for the Congress to take 
the lead. There are many excellent provisions in H.R. 1367, and 
RFA leadership, membership, and affiliated clubs applaud Mr. 
Saxton for his willingness to take on this battle again.
    In particular, we like the following sections and hope to 
see them as part of this package when it is signed into law.
    In the purposes section, we like purpose No. 4, which 
strives to ensure sustainable fisheries for highly migratory 
species. We like the mid-Atlantic Bight is afforded protection, 
especially in light of the high interaction this destructive 
gear has with marlin. Expanding this protection both to a 
larger geographic area and for a longer period of time--
throughout the seasonal migration of the marlin, for example--
would afford even more protection.
    We strongly urge Mr. Saxton to discuss the best approach 
with affected parties.
    The effort limitation provision looks workable and should 
achieve its goal to limit the number of sets in the mid-
Atlantic Bight. The RFA applauds the expansion of the bycatch 
mortality reduction research program to include all highly 
migratory species and sea turtles. This program will be an 
excellent model for other nations, which we share with our 
highly migratory species.
    The research that is done through this program should show 
whether the gear is truly destructive, as the RFA maintains, or 
simply misunderstood, as the longliners themselves claim.
    The RFA members strongly believe that an observer program 
that can verify the actual bycatch from these vessels while the 
experiment with different gear configurations may make a huge 
difference in how longliners impact nontargeted species. I will 
speak more on that later in my testimony.
    Section 12, which reallocates the portion of the total 
allowable catch of swordfish to handgear and harpoon fisheries, 
will certainly answer that argument that if a U.S. longliners 
do not fish for these fish, some other nation will.
    We will retain our domestic quota. And judging from the 
huge swordfish being landed by harpooners from Menemsha, 
Massachusetts, we will be able to fill our quota as well.
    The enclosed July 20th edition of Martha's Vineyard Gazette 
reports that two boats landed 47 adult swordfish that dressed 
over 200 pounds, an astonishing amount of this high-value fish. 
In fact, just one trip resulted in almost 10,000 pounds of 
swordfish.
    Why this is astonishing is, according to the NMFS 
statistics, last year's entire total of harpooned swordfish was 
a mere 960 pounds.
    Mr. Chairman, that is less than 10 percent of these two 
recent trips. I suspect the recent closure to the Northeast 
distant fleet of longliners may be a factor in this dramatic 
rebound of the swordfish population.
    According to marine biologists, swordfish are highly 
resilient fish, and if given a chance to spawn before 
harvested, stocks will rebound in a very short period of time.
    Another example of the swift return of swordfish, which 
also shows that a localized effort makes a big difference, can 
be found in a NMFS publication entitled ``Draft Amendment 1 to 
the Fishery Management Plan for Atlantic Swordfish, Including 
Environmental Assessment and Regulatory Impact Review.''
    As you can see by the chart, when the mercury scare 
occurred in 1971, the longliners had no market for swordfish 
and directed their gear on other fish. The swordfish population 
starts a quick and steady climb. The information in this chart 
was compiled from the NMFS data that longliners themselves 
reported.
    But we will get back to H.R. 1367. Section 13, which 
requires the Secretary of Commerce to closely monitor the 
fishery on an annual basis and further requires the Secretary 
to take steps to minimize bycatch, is light years ahead in 
conservation, and we hope to see this section retained in its 
current form.
    Our main concern about pelagic drift longlines is the non-
selectivity of the gear. The longliners argue that their gear 
can be managed so that bycatch does not occur. The RFA 
maintains that if this were the case, longlines would not have 
been thrown out of the Grand Banks for jeopardizing the 
continued existence of endangered sea turtles.
    The RFA offers this: If the gear is destructive, it should 
be out of the water, not just in the areas that NMFS has 
regulated, not just in the areas where H.R. 1367 deems 
necessary, but everywhere.
    In order to discover if this gear is manageable, research 
needs to be conducted. We can all agree it has not been done 
yet. The jury is still out on the gear, literally. However, the 
record clearly shows that since the introduction of long-lining 
in U.S. waters, white marlin and blue marlin swordfish 
populations have been on a dramatic downward spiral.
    Should NMFS be directed by Congress to implement the 
comprehensive research program outlined in Mr. Saxton's bill, 
all interested parties will know whether the gear should be 
part of our fisheries harvesting mix or should be removed from 
our waters permanently.
    We strongly urge the Subcommittee to approve such a 
comprehensive research program during this Congress. Our highly 
migratory species are too valuable to leave to chance or to bad 
science or what we have now: incomplete science, inadequate 
observer coverage.
    And to be candid, the RFA does not think it is possible to 
fish this gear without causing appalling levels of bycatch. 
Therefore, it is the goal of the RFA to help ensure that 
pelagic drift longline gear will be phased out of all U.S. 
waters by 2006.
    Mr. Chairman, thank you for the opportunity to testify, and 
I would be pleased to answer any questions you have.
    [The prepared statement of Mr. Donofrio follows:]

   Statement of James A. Donofrio, Executive Director, Recreational 
                            Fishing Alliance

    My name is Jim Donofrio, and I am the Executive Director of the 
Recreational Fishing Alliance, also known as the RFA. The RFA is a 
national 501(c)(4) non-profit political action organization whose 
mission is to safeguard the rights of salt water anglers, protect 
marine, boat, and tackle industry jobs, and ensure the long-term 
sustainability of our nation's marine fisheries. Thank you Mr. Chairman 
and members of the Subcommittee for inviting me here today to testify 
on H.R. 1367, the Atlantic Highly Migratory Species Conservation Act of 
2001.
    H.R. 1367, introduced by Congressman Jim Saxton, is the legislative 
remedy needed to reduce the number of pelagic drift longlines in the 
Atlantic EEZ and the Gulf of Mexico. It is imperative that the Congress 
makes clear its commitment to remove this destructive gear from our 
nation's waters. Under the current regulations finalized by the 
National Marine Fisheries Service, the closed areas for HMS (Highly 
Migratory Species) are under fire by numerous and disparate lawsuits. 
These lawsuits have been filed by all sectors of the fishery - the 
longliners, some recreational groups and some environmental groups - 
all looking for a different outcome. When management by lawsuit becomes 
the way fisheries are handled in this country, it is time for the 
Congress to take the lead.
    There are many excellent provisions in H.R. 1367 and the RFA 
leadership, membership and affiliated clubs applaud Mr. Saxton for his 
willingness to take on this battle again. In particular, we like the 
following sections and hope to see them as part of this package when it 
is signed into law. In the purposes section, we like purpose 4, which 
strives to ensure a sustainable fishery for highly migratory species. 
We like that the Mid-Atlantic Bight is afforded protection, especially 
in light of the high interaction this destructive gear has with marlin. 
Expanding this protection both to a larger geographic area and for a 
longer period of time - throughout the seasonal migration of the 
marlin, for example - would afford even more protection. We strongly 
urge Mr. Saxton to discuss the best approach with affected parties.
    The effort limitation provision looks workable and should achieve 
its goal to limit the number of sets in the Mid-Atlantic Bight. The RFA 
applauds the expansion of the Bycatch Mortality Reduction Research 
Program to include all highly migratory species and sea turtles. This 
program will be an excellent model for the other nations with which we 
share our highly migratory species. The research that is done through 
this program should show whether the gear is truly destructive, as the 
RFA maintains, or is simply misunderstood, as the longliners themselves 
claim. The RFA members strongly believe that an observer program that 
can verify the actual bycatch from these vessels, while they experiment 
with different gear configurations, may make a huge difference in how 
longlines impact non-target species. I'll speak more on that later in 
my testimony.
    Section 12, which reallocates the portion of the total allowable 
catch (TAC) of swordfish to the hand gear and harpoon fisheries, will 
certainly answer the argument that if the U.S. longliners do not fish 
for these fish, some other nation will. We will retain our domestic 
quota and judging from the huge swordfish being landed by harpooners 
from Menemsha, Massachusetts, we will be able to fill our quota as 
well. The enclosed July 20th edition of the Martha's Vineyard Gazette 
reports that two boats landed 47 harpooned adult swordfish that dressed 
out at over 200 pounds each, an astonishing amount of these high value 
fish. In fact this one trip resulted in almost 10,000 pounds of 
swordfish. Why this is astonishing is that according to the NMFS 
statistics, last year's entire total of harpooned swordfish was a mere 
960 pounds. Mr. Chairman, that is less than ten percent of these two 
recent trips. I suspect the recent closure to the Northeast distant 
fleet of longliners may be a factor in this dramatic rebound of the 
swordfish population. According to marine biologists, swordfish are 
highly resilient fish and if given a chance to spawn before harvested, 
stocks will rebound in a very short period of time.
    Another example of the swift return of swordfish, which also shows 
that a localized effort makes a big difference, can be found in the 
NMFS' publication entitled ``Draft Amendment 1 to the Fishery 
Management Plan for Atlantic Swordfish Including an Environmental 
Assessment and Regulatory Impact Review.'' (see enclosed chart) As you 
can see by this chart, when the mercury scare occurred in 1971, the 
longliners had no market for swordfish and directed their gear on other 
fish. The swordfish population starts a quick and steady climb. The 
information in this chart was compiled from the NMFS data that 
longliners themselves reported. But let me get back to H.R. 1367.
    Section 13, which requires the Secretary of Commerce to closely 
monitor the fishery on an annual basis - and further requires the 
Secretary to take steps to minimize bycatch is light years ahead in 
conservation, and we hope to see this section retained in its current 
form.
    Our main concern about pelagic drift longlines is the non-
selectivity of the gear. The longliners argue that their gear can be 
managed so that bycatch does not occur. The RFA maintains that if this 
were the case, longlines would not have been thrown out of the Grand 
Banks for jeopardizing the continued existence of endangered sea 
turtles. The RFA offers this - if the gear is destructive, it should be 
out of the water - not just in the areas that NMFS has regulated, not 
just in the areas where H.R. 1367 deems necessary, but everywhere. In 
order to discover if this gear is manageable, research needs to be 
conducted. We can all agree it has not yet been done - the jury is 
still out on this gear - literally. However, the record clearly shows 
that since the introduction of longlining in U.S. waters, white marlin 
and blue marlin and swordfish populations have been on a dramatic 
downward spiral.
    Should the NMFS be directed by Congress to implement the 
comprehensive research program outlined in Mr. Saxton's bill, all 
interested parties will know the whether this gear should be a part of 
our fisheries harvesting mix, or should be removed from our waters 
permanently. We strongly urge the Subcommittee to approve such a 
comprehensive research program during this Congress. Our HMS species 
are too valuable to leave to chance or to bad science or what we have 
now - incomplete science and inadequate observer coverage. To be 
candid, the RFA does not think it is possible to fish this gear without 
causing appalling levels of bycatch. Therefore, it is the goal of the 
RFA to help insure that pelagic drift longline gear will be phased out 
of all U.S. waters by 2006.
    Thank you for this opportunity to testify. I will be pleased to 
answer any questions you may have.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.027
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.028
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.029
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.030
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4368.031
                                 
    Mr. Saxton. Thank you very much, Mr. Donofrio.
    Now we will hear from Tim Hobbs, a representative of the 
National Coalition for Marine Conservation.

 STATEMENT OF TIM HOBBS, FISHERIES PROJECT DIRECTOR, NATIONAL 
               COALITION FOR MARINE CONSERVATION

    Mr. Hobbs. Thank you, Mr. Chairman.
    My name is Tim Hobbs. I am the fisheries project director 
with the National Coalition for Marine Conservation.
    I sincerely appreciate the opportunity to testify before 
you today on H.R. 1367 and efforts to control pelagic longline 
fishing in U.S. waters.
    First off, I would like to thank you, Mr. Chairman, for the 
tremendous amount of time and effort you have put forth to 
address the issue of longline bycatch and other issues facing 
our Atlantic highly migratory species.
    At this time, while we support the intent of this 
legislation, we do not feel, as it is currently drafted, that 
it goes far enough in providing the needed level of 
conservation for blue and white marlin.
    H.R. 1367 would leave the existing NMFS area closures in 
place and would supplement those area closures with additional 
ones to achieve additional conservation benefits for blue and 
white marlin. This is important because the NMFS closures 
should significantly benefit certain highly migratory species. 
Swordfish, large coastal sharks, and sailfish are expected to 
receive substantial decreases in bycatch reduction up to or 
over 40 percent.
    We fully support the NMFS closures, and we would also 
support additional closures targeted at reducing blue and white 
marlin bycatch. However, we feel at this time that the area 
closures in H.R. 1367 are not substantial enough to address the 
bycatch problem adequately.
    The area closures in the mid-Atlantic Bight we believe are 
of such a limited scope, both spatially and temporally, as to 
provide a very minimal level of conservation for white marlin. 
We are concerned that displaced fishing effort concentrated on 
the boundaries of these closed areas could actually negate the 
conservation benefits that might be achieved by them, since 
they are indeed so small.
    And as Mr. Hayes pointed out earlier, the gulf closure in 
the bill covers an area where there is very little longline 
fishing effort. In fact, the National Marine Fisheries Service 
estimated last year that this exact closure would only reduce 
billfish bycatch by ``generally less than 1 percent.''
    We believe that additional time-area closures in U.S. 
waters should be implemented to achieve reductions in blue and 
white marlin bycatch that are commensurate with the levels of 
reduction achieved for swordfish, large coastal sharks, and 
sailfish through the closures now in place.
    My organization could support a properly structured buyout 
of U.S. Atlantic pelagic longline vessels. We could support a 
buyout for two reasons: One, for effort reduction, and we think 
such a buyout should focus on removing the active vessels from 
the fishery, as this would provide the most immediate 
conservation benefit. And secondly, we could support a buyout 
to compensate vessel owners that can demonstrate an adverse 
economic impact resulting from the area closures--either area 
closures that are currently now in place or any area closures 
to be implemented in the future.
    We strongly support the provisions of the bill that would 
transfer the portion of the bought-out swordfish quota from the 
longline categories to the handgear categories. Harpoon and 
rod-and-reel gear can take swordfish--large, mature fish--with 
absolutely no bycatch, thus eliminating the problems of pelagic 
longline gear.
    And this is an important point. As we attempt to rebuild 
these fisheries, it is going to be important to shift to more 
selective fishing gears, as we do not believe the HMS fisheries 
can be sustainable, especially in an ecosystem context, if 
pelagic longlines are the primary gear used.
    For several years, there have been discussions into ways 
that longline gear could be modified to reduce the levels of 
bycatch. Unfortunately, to date, there has been virtually no 
testing of these gear modifications to determine their 
potential in reducing bycatch. We would certainly support 
legislation mandating NMFS to conduct a research program to 
test gear modifications. We envision a program that would test 
things such as the length of mainline used, the soak time, the 
types of hooks that are used, and other methods to determine if 
there is any potential in reducing longline bycatch.
    This is very important because we need to determine what 
options are at our disposal to reduce longline bycatch. At this 
time, time and area closures are the only means that we have. 
And in fact, we may find that closures really are the only 
means available to reduce longline bycatch, but we need to 
determine through gear modification research what other options 
might exist.
    We also believe that vessel monitoring systems need to be 
implemented quickly. We would urge the National Marine 
Fisheries Service to work primarily on addressing the temporary 
injunction against VMS. And if the agency wishes to secure 
congressional appropriations later, it could then reimburse 
fisherman who were required to purchase VMS. But VMS needs to 
be implemented immediately. We have several time-area closures 
currently in place, and there is virtually no means of 
enforcement, so it is very important to get it in place as soon 
as possible.
    Thank you very much. I am grateful the opportunity to 
testify before you. We are highly supportive of your efforts, 
Mr. Saxton, and we thank you very much for providing the 
leadership necessary to tackle these important issues. Thank 
you very much.
    [The prepared statement of Mr. Hobbs follows:]

    Statement of J. Timothy Hobbs, Jr., Fisheries Project Director, 
               National Coalition for Marine Conservation

    Good morning Mr. Chairman, Mr. Saxton and members of the 
Subcommittee. I am Tim Hobbs, Fisheries Project Director with the 
National Coalition for Marine Conservation. The NCMC is the nation's 
oldest public advocacy organization dedicated exclusively to conserving 
ocean fish and their environment. My organization has been involved in 
fisheries management issues since 1973 and we are widely recognized as 
a leading advocate for the conservation and responsible management of 
highly migratory species-swordfish, billfish, tunas and sharks. I 
sincerely appreciate the opportunity to testify before you on HR 1367 
and efforts to control pelagic longline fishing in U.S. waters.
    First of all, I would like to thank Mr. Saxton for the tremendous 
amount of time and effort he has put forth to address the problems 
facing our highly migratory species. These species are vital to the 
health of our marine ecosystems and extremely important to U.S. 
recreational and commercial fishermen and to the well being of our 
coastal communities. We commend Mr. Saxton for championing this issue.
    The current state of highly migratory species in the Atlantic is 
deplorable, largely due to the widespread use of pelagic longline 
fishing gear. Pelagic longlines are highly indiscriminate in the 
number, size and type of marine species they catch, and produce high 
rates of mortality, a combination that makes this gear especially 
detrimental to the offshore marine ecosystem.
    Since Congress made reductions in bycatch and bycatch mortality a 
domestic priority under National Standard 9 of the 1996 reauthorization 
of the Magnuson-Stevens Act, my organization has been calling for 
measures to improve data collection and to address the documented 
bycatch problems of pelagic longline gear in U.S. waters. In February 
of 1998, NCMC published a report, titled Ocean Roulette: Conserving 
Swordfish, Sharks and Other Threatened Pelagic Fish in Longline 
Infested Waters. This report examines every conceivable management 
option for its potential in reigning in longline bycatch. A lengthy 
analysis reveals that the only way to effectively reduce longline 
bycatch is to remove the gear from the water where and when it is doing 
the most damage. More traditional management measures, such as size or 
trip limits, are simply unsuited to address the bycatch problems of 
such an indiscriminate fishing gear.
    Since completing Ocean Roulette, my organization has urged the 
National Marine Fisheries Service (NMFS) to implement a comprehensive 
bycatch reduction program to reduce longline bycatch of all impacted 
species through a suite of time-area closures. At long last, NMFS 
published Amendment 1 to the Highly Migratory Species Fishery 
Management Plan (HMS FMP) on August 1, 2000, which closed 133,000 
square miles to longline fishing, either seasonally or year-round. NCMC 
fully supports the NMFS closures. Under NMFS estimates, these closures, 
which are now fully implemented, will reduce longline bycatch of 
juvenile swordfish by up to 42%, large coastal shark bycatch by up to 
43%, and sailfish bycatch by up to 44%. These reductions are 
substantial and will provide significant benefits to the rebuilding 
efforts of these overfished species.
    Unfortunately, blue and white marlin only receive a residual 
benefit from the NMFS closures and estimates of bycatch reduction for 
these species are, at best, a meager 6-12%. This fact is made worse 
because blue and white marlin are by far the most overfished of the 
Atlantic highly migratory species. The most recent ICCAT stock 
assessment estimates blue marlin at 40% of healthy population levels 
(MSY) and white marlin at a mere 15%. Clearly, more action must be 
taken to stop the decline of these important species. Additional time-
area closures to longline fishing in U.S. waters should be implemented 
to achieve a level of bycatch reduction for blue and white marlin 
commensurate with the level of relief provided to swordfish, sharks and 
sailfish from the closures now in place.
    We are aware that one of the primary objectives of Mr. Saxton's 
bill is, in fact, to achieve additional conservation for blue and white 
marlin. We fully support this goal and we look forward to working with 
Mr. Saxton and the Subcommittee towards achieving it. At this time, 
however, while we support the intent of this legislation, we do not 
feel the bill as currently drafted goes far enough in securing the 
needed level of conservation for overfished blue and white marlin.
Time/Area Closures in HR 1367
    HR 1367 would leave the existing longline closures promulgated by 
NMFS (by the August 1, 2000 Final Rule) in place and would implement 
additional closures to achieve a higher level of conservation. We fully 
support this course of action. The NMFS closures were developed through 
the established fishery management process, have been thoroughly 
reviewed and commented upon by the public several times, and are based 
on the best scientific data available. Previous legislation addressing 
longline fishing in U.S. waters would have rescinded these area 
closures, an act we feel would be entirely inappropriate. As stated 
above, the conservation benefits of these closures to certain highly 
migratory species are significant.
    The Mid-Atlantic Bight is an area where white marlin are known to 
congregate during the summer months. HR 1367 proposes two annual time-
area closures to longlining in this region: a 40-day closure covering 
approximately the 100- to 1,000-fathom depth contours from the Hudson 
Canyon to the Poorman's Canyon; and a 30-day closure covering 
approximately the 100- to 1,000-fathom depth contours from the 
Washington to the Norfolk Canyons.
    NCMC concurs that white marlin are concentrated in these areas at 
these times. However, we believe that both of these closures are of 
such limited scope, both spatially and temporally, as to provide little 
benefit to white marlin. We are concerned that displaced longline 
fishing effort concentrated on the fringes of these small closures 
could negate the conservation benefits achieved by them. We believe the 
mid-Atlantic closures in HR 1367 must be expanded to achieve a greater 
level of conservation for white marlin.
    HR 1367 would also close an area in the western Gulf of Mexico from 
the shore out to 500 fathoms, from the U.S./Mexico border to 
approximately Cape San Blas, Florida. This is exactly the same closure 
that appeared in previous legislation. Unfortunately, there is very 
little longline fishing occurring in this area and, therefore, closing 
it would do little for conservation. In fact, in an April 5, 2000 
letter to Senator John Kerry last year, then-Assistant Administrator 
for NOAA Fisheries Penny Dalton stated that this same closure would 
only result in a reduction in billfish bycatch of ``generally less than 
1%.'' This closure will accomplish little towards achieving the 
purposes and objectives of this legislation.
    There are, however, areas in the Gulf of Mexico with higher levels 
of longline bycatch that should be considered for closure. NMFS 
originally proposed a seasonal closure in the western Gulf of Mexico 
that was expected to reduce billfish bycatch by up to 15%.
    There are other documented areas of high blue and white marlin 
bycatch, such as in the northern Caribbean, which should also be 
considered for potential closure. I would be happy to work with Mr. 
Saxton and the Subcommittee in obtaining and reviewing studies and data 
showing longline bycatch in all of these areas.
Buyout
    NCMC could support a properly structured buyout of U.S. Atlantic 
pelagic longline vessels either to reduce longline fishing effort or to 
compensate fishermen demonstrably impacted by the time-area closures, 
having derived a substantial portion of their income from an area now 
off-limits to fishing. A buyout for the purposes of effort reduction 
should focus primarily on removing active vessels from the fishery, 
with addressing latent fishing effort and preventing reinvestment into 
the fishery important, but secondary, goals. Removing active vessels 
from the fishery provides immediate relief to overfished stocks.
    Vessels accepting a buyout for compensatory reasons must be able to 
demonstrate a significant, adverse economic impact directly resulting 
from recently enacted time-area closures. This can be achieved through 
appropriate qualification criteria.
Quota Transfer
    We strongly support Section 12 of HR 1367, which would transfer the 
portion of the U.S. swordfish quota caught by bought-out vessels from 
the longline to the handgear (harpoon, rod and reel) categories. 
Harpooning swordfish is a traditional fishery that first started in the 
late 1800s. Contrasted with longlines, fishermen using harpoons or rod-
and-reel take only large, mature fish with absolutely no bycatch, thus 
avoiding the two major problems with pelagic longlines. The selectivity 
of harpoon fishing is probably why this fishery was sustainable for 
over 100 years.
    The objectives of the Highly Migratory Species FMP implemented by 
NMFS in 1999 include restoring both the traditional harpoon fishery as 
well as the traditional recreational fishery, participation in both of 
which has dwindled in recent years as the swordfish stock declined from 
unsustainable fishing practices.
    NCMC strongly supports a transition from the use of pelagic 
longlines to more sustainable and selective fishing gears, such as 
harpoon or rod-and-reel. Time-area closures to longlining are necessary 
to protect juvenile swordfish (and other fish) while stocks recover, 
but a shift to more sustainable gears is necessary as we begin to 
rebuild these stocks, as we do not believe the swordfish fishery can be 
sustainable, especially in an ecosystem context, if longlines (as 
commonly fished) are the primary gear used.
Research
    Methods of modifying the way longlines are fished to reduce bycatch 
have been discussed for years, but so far, few gear modifications have 
actually been tested to determine whether or not they hold any promise 
for reducing bycatch. We need to determine, once and for all, whether 
any modifications exist that could be adopted to reduce bycatch. We 
would support legislation mandating NMFS to conduct a comprehensive 
research program to test various gear modifications for their bycatch 
reduction potential. We envision a research program that would test, 
among other things, the duration of soak time, length of the mainline 
used, or various hook types to determine potential for reducing 
bycatch.
    Conducting this research is essential for the future management of 
these species, both in U.S. waters and internationally, for we must 
fully assess all options at our disposal for reducing longline bycatch. 
The value in conducting this research lies not only in finding 
modifications that would presumably allow longline fishing to continue 
in U.S. waters, but in finding an exportable method of bycatch 
reduction that could be adopted by foreign fleets as well. This 
research would also help determine whether or not we must rely upon 
time-area closures as the sole method of reducing bycatch.
Future Action
    As you may be aware, my organization strongly opposed previous 
legislation that restricted the ability of the Secretary to take future 
additional action to modify or expand the time-area closures. We see 
absolutely no reason why such a restriction should ever accompany 
management action with uncertain effects.
    My organization fully endorses Section 13 of HR 1367, which charges 
the Secretary with monitoring the effectiveness of the area closures on 
an annual basis and taking additional action as necessary to reduce 
bycatch and to comply with the law. As it is difficult to judge the 
effectiveness of the area closures-due to shifts in fishing effort and 
effort displacement, annual variations in movements of the fish and 
other factors-continually analyzing their effectiveness is crucial to 
maximize their success in reducing bycatch over the long term.
Vessel Monitoring Systems
    There are several time-area closures in the Atlantic and Gulf of 
Mexico currently in effect to reduce longline bycatch of finfish and 
sea turtles, yet there is no adequate means of enforcement. The only 
effective method of enforcing large-scale time-area closures, the 
boundaries of which are often far out to sea, is with Vessel Monitoring 
Systems (VMS). We have repeatedly urged NMFS to implement VMS to be 
ready concurrent with the implementation of time-area closures, yet the 
system is still not in place. Logbook entries and dockside sampling, 
the means by which NMFS claims it can enforce the closures, are by no 
means adequate. NMFS has dragged its feet and has failed to respond to 
a Court-ordered injunction against VMS for almost a year. As there is a 
dire need for timely implementation of VMS, we believe NMFS should 
focus its efforts primarily on lifting the injunction, thus mandating 
VMS for all Atlantic pelagic longline vessels, and secondarily to 
securing congressional appropriations. If NMFS is ultimately successful 
in gaining congressional appropriations for VMS, it could later 
reimburse fishermen who were required to purchase it. Enforcement of 
important conservation measures should not be stalled while NMFS 
pursues congressional funding with no guarantee of success. VMS must be 
implemented as quickly as possible.
    Mr. Chairman, Mr. Saxton and members of the Subcommittee, I am 
grateful for the opportunity to share my thoughts with you today on 
future efforts to achieve needed conservation measures for overfished 
Atlantic highly migratory species. We are highly supportive of your 
efforts on this issue, Mr. Saxton, and commend you for providing the 
leadership necessary to tackle these issues, which are often 
contentious and difficult to find solutions palatable to all sides. We 
especially look forward to working with all of you to achieve 
additional conservation measures for blue and white marlin. I would be 
happy to answer any questions.
                                 ______
                                 
    Mr. Saxton. Thank you very much for your perspective, Mr. 
Hobbs.
    Are you any relation to David Hobbs, who is the President's 
legislative liaison person?
    Mr. Hobbs. No. No, I am not.
    Mr. Saxton. We are going to go to Mr. Underwood for 
whatever comments or questions he may have after hearing the 
high degree of agreement between all the witnesses.
    [Laughter.]
    Mr. Underwood. Thank you. Thank you, Mr. Chairman, and 
thank you for the opportunity to hear a very wide-ranging 
series of opinions about this matter. This is a matter that 
obviously requires congressional attention.
    And I think it is certainly not limited to the Atlantic. I 
think these are international issues, as well as issues that 
affect an area that is closer to my own responsibility, the 
Pacific.
    I was struck, actually, trying to understand the 
interaction between recreational fishing and fishing as a 
commercial enterprise. And to some extent Mr. Panacek's 
characterization that long-lining has been demonized is 
probably fairly accurate. I think there is certainly not a 
wide-ranging level of support for those kinds of activities.
    But I did want to ask perhaps Dr. Hogarth--or others may 
want to respond to this--Mr. Panacek asserts in his testimony 
that by limiting the time spent by closing certain areas to 
this kind of activity, that basically the quotas will simply be 
reassigned to someone else, and thereby really, in effect, 
undermining the conservation intent of the legislation. In 
other words, it may make us feel that we are actually making a 
bold strike for conservation of the species.
    At the same time, Mr. Donofrio asserts in his testimony 
that through skilled recreational fishing--I was reading about 
the harpooning, and I asked Mr. Saxton if he had been 
harpooning to see how successful that is. It would have to be, 
in my estimation, pretty enormously successful in order to--
    [Laughter.]
    I am not doubting that is feasible or not, but I also 
understand in your testimony, Dr. Hogarth, that you have doubts 
that this quota could be made up in recreational fishing as 
well. So could you respond to that in some way?
    Dr. Hogarth. Thank you, Mr. Underwood.
    Yes, it is our concern that it cannot be made up. We have 
29 percent of the swordfish, for example, and the indications 
are that we could not make this up with the use of handgear. 
And what happens is that, when you deal with the ICCAT, there 
is a very good chance that we would lose this quota to other 
countries. And the handgear would not be able to harvest the 
amount.
    So that is a concern of ours, that we would lose quota in 
the process.
    And the other countries who would pick this up, they 
honestly do not have the regulations and do not have the time-
area closures or the other regulations that the U.S. has on its 
fleet. And so we would probably lose some conservation.
    You know, that has been one of our major concerns right 
now, what we have done to the longline industry, both in the 
Pacific and the Atlantic, is that effort is obviously being 
taken up by Spain and other countries. And they do not practice 
saving turtles, for example. And the increase in the take of 
turtles is something that concerns us.
    So we are trying to work with industry now on gear 
research, because we think if we can get some gear 
modifications in through the State Department and international 
avenues, we will be able to transfer that technology, such as 
we have done in the shrimp industry with the turtle excluder 
devices.
    Mr. Underwood. We don't want to make the commercial 
practices of other nations the measure of how we carry out our 
own activities, and so it presents us with a little bit of a 
quandary.
    Is it your estimation--perhaps others would like to comment 
on this--that we are doing as much as we can internationally in 
order to create the kind of fishing practices climate that we 
want? Are we putting enough pressure on the other countries?
    Dr. Hogarth. I will take the first stab at that.
    In several instances, no, we are not. When it comes to the 
sea turtles, we are definitely not. We have to use the 
multilateral type of agreements, bilateral agreements with 
foreign countries, and we have to use the State Department. And 
we plan to do that. We have already talked to the State 
Department about several avenues, once we can develop 
technology.
    The longline industry, while right now it may appear it is 
sort of under attack, we are also working in the shrimp 
industry, for example, we have TEDs, or turtle excluder 
devices. Foreign countries have to meet those requirements or 
they cannot export shrimp to the U.S. That is something 
Congress did, and it is working very effectively.
    In the Southeast region, we inspect those countries at 
least annually to make sure that they are abiding by the 
regulations. So if we can develop the technology, I think we 
have avenues in order to send this overseas.
    Through ICCAT, we are having some problems there with 
compliance. There is no doubt the European Union is not 
complying the way we think it should. It is going to be a major 
issue for the commissioners at the next meeting. It is a 
continual battle that we have to get other countries in 
compliance. But it is something we continue to battle with.
    But we know in the U.S. that we have through the highly 
migratory species management plan, we feel like the time-area 
closures, we have tried to address the bycatch problem, and I 
think for several species we have done that.
    But, no, on an international level, particularly longline, 
we have a lot of work to do.
    Mr. Underwood. Go ahead Mr. Panacek, and then Mr. Donofrio 
and Mr. Hobbs.
    Mr. Panacek. Thank you, Mr. Underwood.
    I would like to just emphasize the fact that the United 
States fishermen have set the examples for all the foreign 
countries. We've set unprecedented conservation measures, and 
they have complied and complied and complied, to the point of 
going out of business to set an example for the international 
countries, the foreign countries, who are almost and 
unfortunately laughing at the United States and continuing to 
catch all the fish that they want, including tremendous amounts 
of billfish that they catch and sell.
    And if we don't get the recreational and the commercial 
together in the United States and realize that ICCAT is the 
only solution to this billfish problem, it won't matter that 
the United States isn't fishing in the mid-Atlantic Bight or 
anywhere, including the recreational boats, because there won't 
be any fish left if it is up to them.
    Mr. Underwood. Thank you.
    Mr. Donofrio?
    Mr. Donofrio. Thank you, Mr. Underwood.
    I want to say I respectfully disagree with Dr. Hogarth on 
this scenario. I think ICCAT is necessary, but I believe that 
the National Marine Fisheries Service and the commercial 
longline industry has been hiding behind it. And as far as the 
perspective of looking at the Atlantic Ocean as one big pond 
and that these fish are commuting back and forth like they are 
on Concords, that just doesn't happen.
    We have a continental shelf here that is rich in marine 
life and it holds fish. There is a lot of north-south 
migration. And I think it is the duty of the U.S. Congress to 
step in at this time and protect the industries--both 
traditional commercial industry and recreational industry--from 
the ravages of this gear. Harpooning in U.S. waters indicates 
that more harpoon swordfish were landed in poundage than were 
caught by the U.S. longline fleet, and it can be done again.
    And we may not get all the quota. And if we lose a little 
bit of that quota, we are not losing it out of our EEZ. The 
other countries, Spain, Japan, etc., they will take that quota, 
but they are going to be catching it somewhere else in the 
world. We are still protecting our 200-mile limit. And that was 
the objective of that bill in 1976, and I think we need to move 
forward on that.
    Mr. Underwood. Okay, thank you.
    Mr. Hobbs?
    Mr. Hobbs. Yes, I wanted to reiterate a point that Mr. 
Donofrio just made.
    Harpooning might seem like a primitive gear, but I would 
not underestimate the ability of harpoon fishermen to harvest 
swordfish. The heyday of the swordfish harpoon fishery was 
1959, and U.S. and Canadian harpoon fishermen harvested more 
swordfish by harpoon in 1959 than are taken by the two 
countries today with all the gears.
    So I think the potential does exist to make the transfer to 
more selective fishing gears. And I think that if we can make 
the point at ICCAT that we are restructuring our fishery to 
make it more selective, that should go a long way toward 
securing the leadership that we need there.
    Mr. Underwood. Go ahead, Mr. Saxton. I admire your 
leadership on this issue.
    Mr. Saxton. I think Mr. Underwood and I are kind of out in 
the cold on the harpooning.
    You know, when we think of harpooning, we think of old 
sailing ships and something that is kind of archaic or old-
fashioned.
    And, Mr. Hobbs, to hear your explanation, that may not 
necessarily be the case. If as late as 1959 there was a 
successful harpoon fishery that was economically viable, your 
position is that maybe it is today as well. Is that what you 
are saying?
    Mr. Hobbs. Well, I think the potential certainly exists. In 
1959, the fishery was much healthier than it is today.
    One of the problems with pelagic longline gear, 
unfortunately, is that it harvests juvenile swordfish just as 
easily as mature swordfish, and that has altered the population 
structure of swordfish. So it might make it difficult to 
achieve a harpoon fishery that depends upon large, mature fish 
if widespread longline fishing is allowed to continue without 
areas to reduce juvenile swordfish bycatch.
    But I think certainly the potential exists to expand these 
fisheries to pick up some of the slack where we can shift away 
from longline gear.
    Mr. Saxton. Mr. Hayes?
    Mr. Hayes. Yes, I want to get back to improving ICCAT, but 
first I want to say one thing about harpooning.
    The objective here is laudable.
    Mr. Saxton. I am sorry?
    Mr. Hayes. The objective is laudable. Essentially what the 
idea is, is to find the gear that reduces the bycatch. Mr. 
Donofrio and Mr. Hobbs are simply suggesting that here is a 
gear that will do it, either handgear or harpoon gear.
    It does have some other interesting side effects. And I 
think in the short term, Mr. Hogarth is right. It would have 
some very negative side effects internationally.
    Mr. Saxton. Why is that, please?
    Mr. Hayes. The difficulty is that if you had the ability--
let's assume that you went ahead and reduced the quota as 
exactly as in your bill, and we went and reduced it by as much 
as 40 percent of the catch, we don't have today a harpoon and a 
handgear capability to go out and suddenly fill that in.
    One of the things in my history is I ran the development 
program for the National Marine Fisheries Services. I got to 
develop the Alaska fishing fleet. I gained some concept of how 
you do this.
    It would cost us millions of dollars to train fishermen, to 
develop the gear, and, as Mr. Hobbs correctly points out, the 
stock structure is such that you couldn't do it anyway, not 
until the stock recovered. And that is going to be some 
substantial period from now.
    Mr. Saxton. Why is that?
    Mr. Hayes. Well, because they are not big enough.
    Mr. Saxton. I have been dealing with the longline part of 
this for a couple of years now, but I don't know the harpooning 
end.
    Mr. Hayes. It is just that, you know, what we would be 
creating in a fishery development standpoint is a brand new 
fishery. Now, it may be historically a fishery. There are 
people out there that do it. But are there infrastructure, 
boats, people trained?
    What I know about the harpoon fishery is it is highly 
dangerous. Do we have the appropriate safety mechanisms in 
place to keep people from sitting out there on the prow of that 
boat and doing that activity on the high seas? I think it is a 
difficult question, frankly, as to whether you could simply 
transfer it.
    But my point is that we are focused on a solution that may 
not be the thing that we ought to be focused on. What the 
solution is, is how do we harvest tuna and swordfish and reduce 
the bycatch of the things that we want to reduce the bycatch 
of.
    And I think what Mr. Hogarth was suggesting, and I think 
what everybody on this panel has suggested, is that what we 
need to be doing is accelerating a research program to do 
exactly that.
    Mr. Saxton. Okay, let's talk about research for a minute.
    I understand that you are into kind of two areas of 
research. You are interested in two areas of research.
    The one area is to try to find a way to create a fishery 
that has less bycatch problem, that is a general thing, and 
maybe you have some ideas about how to do that.
    Particularly related to the second thing that I understand 
that you are interested in, and that is research relating to 
the effect of water temperature on various species of highly 
migratory species. Am I saying that right?
    Mr. Hayes. Is that me?
    Mr. Saxton. Yes, sir.
    Mr. Hayes. Yes, that is correct.
    I think it is a combination of essentially two things. I 
refer to it as technical changes, and I had a conversation Dick 
Webber, frankly, and he corrected my definition of technology.
    I think the concept of hotspots probably is the right 
concept, so the question then becomes: How do we avoid large 
areas where this bycatch occurs? Can we do that by looking at 
water temperature, the difference between temperatures that 
tuna stay in and the marlin stay out of? I understand that 
there may be some fairly attractive fishing practices that you 
could develop which could significantly reduce the bycatch.
    And that would mean that you create hotspots and you would 
trade them in different places, and you might have what they 
call rolling closures, which is actually what the mid-Atlantic 
closure--
    Mr. Saxton. That is what we were trying to do in the last 
session.
    Mr. Hayes. And the question I think a lot of people have 
raised is whether that was effective or not. And to be 
perfectly honest, as you know, that was a negotiated thing, and 
maybe, as I suggested earlier, let's start going back and 
taking a science look at it first, and then let's start doing 
the balance on what that economics is, and then let's make an 
appropriate balance and come up with something.
    But I think the concept of hotspots and the concept of gear 
modification together are the kinds of things that we could 
take internationally and that we could do domestically that 
won't have this huge negative impact that the longline 
community has just suggested and which would significantly 
reduce the bycatch billfish.
    And the question is, where do we get that research? And 
what I have been suggesting is that what we ought to do is 
compel our good colleague here, Mr. Hogarth, and our good 
colleague here, Mr. Scott, to develop a research program. And 
maybe they could come back to the Committee and develop such a 
research program for you, and then we could collectively, as a 
community, go figure a way to get that done.
    Mr. Saxton. And what would you think would be the specific 
objectives of this research project? I mean, we don't need a 
research project to tell us there is a problem.
    Mr. Hayes. No, we don't need that. Absolutely do not. No.
    My view is that the objective of that is to determine 
specific enforceable ways of using longline gear that does 
reduce the bycatch of--my interest is in marlins, but also 
large sharks, turtles, all of these other things.
    That is the objective. It is, how do you reduce this 
bycatch? That is a scientific objective, as I see it. And then 
we can start talking about the economic impacts.
    Mr. Saxton. And how do you identify hotspots? How do you 
think we identify hotspots?
    Mr. Hayes. I am a terrible scientist, but let me at least 
tell you what people have told me.
    There are a number of areas out there in which you can fish 
where the bycatch of marlins is more significant than if you 
went someplace else and there, both by way of time and area--
the Florida Straits, that is the only one I know of that 
everybody agrees to.
    But everyone agrees that that is a hotspot, particularly as 
it applies to marlins and sailfish.
    Mr. Saxton. Doesn't everybody agree that there is a hotspot 
in the Mid-Atlantic Bight July through the end of September, 
which we identified?
    Maybe you are saying that that hotspot was identified and 
defined as being too small, but everybody agreed on those 
dates, everybody agreed that that was a hotspot, and everybody 
tentatively agreed to have a time-area closure there.
    Now, are you saying that was too small?
    Mr. Hayes. No. What I think, actually, was that that area--
since I had something to do with sort of defining those spots, 
I think this is what we were trying to do. We were trying to 
identify an area where we could get a maximum amount of bycatch 
reduction coupled with the minimal amount of impact on the 
longline fleet.
    Mr. Saxton. Not everybody, but some people would like to 
have a viable longline fleet that catches swordfish and that 
doesn't catch other highly migratory species and turtles, et 
cetera.
    Mr. Hayes. This is ``Mr. Hotspot,'' I think; better than I 
am.
    But the hotspot theory at least, the scientists at the 
outset did not come up with that as a specific area that was a 
hotspot.
    It was just, frankly, the gulf area that we closed. It 
wasn't a hotspot either. We weren't really trying to use that 
kind of an effort in the gulf anymore than, frankly, we tried 
to use in the mid-Atlantic. I don't think there is any question 
that there is a huge bycatch of white marlin in the mid-
Atlantic. I am not suggesting anything else.
    But I don't think we were specifically looking at this 
concept of hotspots when we entered into the discussions on the 
mid-Atlantic. It was more trying to negotiate those two points.
    Mr. Saxton. I want to ask you and others in a minute what 
you think, based on the scientific information that we 
currently have, what are the elements that create a hotspot.
    But first, Mr. Hobbs is dying to say something.
    Mr. Hobbs. Yes, thank you, Mr. Chairman.
    I just wanted to point out something that Mr. Hayes said, 
and that is to start with the science. Let's look at what kind 
of reduction we want to achieve for white marlin. With 
swordfish and large coastal sharks and sailfish, we have 
achieved maybe up to 42, 43, 45 percent reductions in bycatch.
    So I think the initial question should be, okay, let's try 
to do something similar for white marlin. And then we look at 
what areas could we close at what times that would achieve that 
level of bycatch reduction.
    I mean, we think that the area closures in the mid-Atlantic 
as currently drawn might not be big enough to provide enough 
conservation benefits. We don't know that because we have never 
seen a scientific analysis of those areas.
    But with the NMFS closures, there was detailed scientific 
analysis with both effort displacement and no-effort 
displacement that estimated the levels of bycatch reduction.
    So I think if we can identify these hotspots with the goal 
of, ``let's achieve this much bycatch reduction,'' and then 
analyze them, then we have some numbers to work with and some 
areas to work with that we know are going to achieve the levels 
of reduction that we want.
    Mr. Saxton. Mr. Panacek?
    Mr. Panacek. Yes, Mr. Chairman.
    It has always been my understanding that the mid-Atlantic 
Bight has never been, and statistics show that it is not a 
hotspot. It is one of the lowest areas of interaction of small 
swordfish and billfish.
    The research needs to show us that that is the case, and I 
think we need to look elsewhere. It is not in the mid-Atlantic 
Bight that we have that problem.
    Mr. Saxton. Mr. Donofrio?
    Mr. Donofrio. Thank you, Mr. Chairman.
    I don't know what data the other side was looking at, but 
we have NMFS data here that clearly indicates well within our 
EEZ tremendous hotspots for white marlin bycatch. And I have 
provided the Committee with this data.
    Mr. Saxton. Are those the maps that we used last year?
    Mr. Donofrio. Yes, sir. It is NMFS data.
    Mr. Saxton. Mr. Scott, hotspots--can we identify them?
    Dr. Scott. I think we can identify them so long as we agree 
on what the real objective is. And so far what I have heard is 
that there is a multitude of objectives.
    No single time-area solution I think exists to match all of 
the objectives that I have heard around the table--one being 
white marlin, the other being sea turtles, still another being 
small swordfish.
    So it is very difficult to identify specific areas, unless 
they are very large and very long in time, that would meet all 
of those objectives simultaneously.
    I can say that there has been an evaluation of the relative 
effectiveness on expected reduction in catch for the specific 
times and areas that are identified in the bill, and that is 
information provided in the written testimony of Dr. Hogarth. 
So that information does exist.
    I know I am getting off the idea of hotspots in general, 
but in specific terms to what is in the bill, the magnitude of 
conservation benefit is relatively small. As I tried to point 
out in my testimony, the magnitudes in expected reduction in 
catch here would probably not be measurable in any biological 
sense from the standpoint of status of any of these stocks we 
would be considering.
    Yes, I believe we can identify hotspots, but I think we 
first have to agree on what the primary objective is that we 
want to try and manage. If it is overall bycatch, that is going 
to be something I think that is better promoted gear 
modifications perhaps, as a first step, then first taking 
blanket time-area closures for very, very large and very, very 
extensive periods of time.
    Mr. Saxton. If you identified a species or more than one 
species, such as white marlin and blue marlin, and you said 
that because NMFS data indicates that the white marlin, for 
example, stock is estimated to be less than 15 percent of 
biomass, and you wanted to identify places where longline gear 
would not be appropriate because you wanted to provide an 
opportunity for this species to recover, could you identify 
those areas?
    Dr. Scott. I believe, based on the detailed catch and 
effort information that we have collected from pelagic longline 
fishery, those areas can be identified. And in fact, there have 
been areas identified that relate to high catch rates of things 
like white marlin. So, yes, in my view, it is possible, on an 
international scheme.
    What I tried to point out in my testimony was that the 
level of detail on the data that is reported to ICCAT is much 
coarser than the level of detail that we use domestically for 
making these hotspot determinations. And because of that, you 
end up working with much larger areas of the ocean that may not 
be judged to be as appropriate for time and area closures by 
international members to ICCAT.
    So there is a conflict there with respect to the level of 
detail that is available for making these Atlantic-wide 
determinations of hotspots. The hotspots we are able to 
identify very fine-scale data relate to where the U.S. fishery 
operates, and that is primarily on the western side of the 
Atlantic, ranging down somewhat south of the equator, 
traditionally not much on the eastern side of it.
    Mr. Saxton. Let me ask a series of other questions.
    And let me say, before I do, I am going to have to leave 
here in about 10 minutes. At 12:30, there is a meeting of the 
New Jersey delegation, and we are going to vote on the 
Patients' Bill of Rights this afternoon, and that may not ring 
an important bell with some of you, but it is really important 
right now, here, as the New Jersey delegation is pivotal in how 
this moves forward. So I am going to have to attend that 
meeting.
    But let me just take the 7 or 8 minutes to ask a series of 
questions.
    Bob Hayes, Mr. Scott just mentioned a regulatory regime 
aimed at different gear types. Would you comment on that?
    Mr. Hayes. I think he is right. I mean, there are two 
levels to this.
    The first level is, what do we do domestically because we 
have better information domestically. So we do hotspots when we 
can identify them, and we modify the entire gear to the extent 
we can with whatever technology we apply.
    Mr. Saxton. Are you talking about different kinds of hooks 
or different--
    Mr. Hayes. It is shorter soak times. Actually, it is the 
very same stuff that they are doing this research right now on 
in the turtle business. They are going to do a seven boat 
turtle research program. It is that kind of research. It is, 
how do you modify the gear?
    Now, it may well be, and I think Mr. Donofrio suggested it, 
it may well be that despite the claims that you can do this, it 
can't be done.
    If it can't be done, then I think we have a different 
choice. But if it can be done, then we ought to be requiring, 
by regulation, our industry to fish in a way that will minimize 
this impact.
    Now, if it is gear modifications, frankly, those are things 
that are much easier to take internationally than these large 
closed areas, because the problem with hotspots identification 
internationally is, as Gerry points out, you are talking huge 
areas of the ocean. And the only place we do have data, which 
we could restrict those a little bit, is from our own fleet, 
which, frankly, I think will be somewhat suspect when we go 
internationally.
    Mr. Saxton. Mr. Donofrio, do you want to comment?
    Mr. Donofrio. Thank you, Mr. Chairman.
    I disagree. I think the gear has got to go. And based on 
people we have talked to--I have a letter here I would like to 
enter for the record from Louis Larsen's family, Betsy Larsen 
from Menemsha, who's Dad actually pioneered long-lining in 
1963. He and his family were harpooners before that for three 
generations.
    And Mr. Larsen regrets that he ever got involved with long-
lining. And at the time, the early days, they did short sets 
because there were so many fish. So the shorter soak times, 
that experiment has already been conducted. When there was 
fish, it was a shorter soak time. You have to get the line in 
right away.
    And the gear just does not work. And this comes right from 
the mouths of people that have done that and now regret they 
have done it.
    [The information referred to follows:]


Larsen's Fish Market, Inc.
P. O. Box 172
Chilmark, MA 02535

July 31, 2001

The Honorable Wayne Gilchrest, Chair
House Subcommittee on Fisheries Conservation, Wildlife and Oceans
2245 Rayburn House Office Building
Washington, DC 20515

Dear Mr. Chairman:

    Please allow me to introduce myself. I am the owner of Larsen's 
Fish Market and my name is Betsy Larsen. I come from a long line of 
commercial fishermen. My father, Louis Larsen, was one of the great 
harpooners of his time. Our homeport is Menemsha, Massachusetts.
    I strongly urge you to support Congressman Jim Saxton's Atlantic 
Highly Migratory Species Conservation Act of 2001. I feel this bill 
would be very effective in reducing bycatch and allowing currently 
overfished stocks of pelagic fish to recover.
    Swordfish have been taken commercially off the Northeastern United 
States for nearly 200 years. Until longlining started in 1963, all 
swordfish landed were harpooned. Longliners set out 40 miles of line 
and thousands of baited hooks to catch swordfish while harpooners use 
traditional methods. Harpooners pick only mature swordfish that have 
spawned at least once. Harpooning is clearly the best way to catch 
swordfish
    We feel that restricting the use of longlines in the Mid-Atlantic 
and the Gulf of Mexico will contribute significantly to the rebuilding 
of swordfish stocks and the overall reduction of longline bycatch We 
also feel that the compensation program is a fair and reasonable way to 
reduce longline effort without leaving fishermen empty handed.
    It is my hope that with the passage of Congressman Jim Saxton's 
Atlantic Highly Migratory Species Conservation Act of 2001, swordfish 
populations will return to the Healthy levels they once were and the 
traditional harpoon fishery will rebound as well.

Very truly yours,

Betsy Larsen
                                 ______
                                 
    Mr. Saxton. Mr. Hobbs and then Mr. Panacek. Gear type?
    Mr. Hobbs. Yes. We have been discussing potential gear 
modifications for several years, and I think that has been one 
reason why other measures to address longline bycatch have been 
put off, because everybody thinks we can do some gear research 
and find a way.
    And that may be the case, and we certainly want to do gear 
research, but we don't think that we should put off other 
management measures that would provide conservation benefits 
now while we get a research program in place and work out the 
details. It is going to take, probably, several years to 
conduct the research.
    So it might be several years before we would actually get 
any benefits from the research. And in the meantime, we think 
we need some conservation measures now, because white marlin 
especially are so badly off.
    Mr. Saxton. Mr. Panacek?
    Mr. Panacek. I would just like to comment quickly on Mr. 
Donofrio's statement about the gear is bad.
    The longline gear is not bad. For the number of hooks we 
set in the mid-Atlantic Bight, bycatch is minimized 
tremendously by the right conditions, the water conditions, 
whether there are fish there, the temperature, the time of 
year, and it is a highly selective, low-volume fishery. They 
are looking for a high-quality fish, not a big volume. We 
cannot simply go anywhere with our gear and catch highly 
migratory species.
    Mr. Saxton. This will have to be the last, probably, 
question, and whoever wants to respond to, but let me start 
with Bob Hayes, because I think he gave me the idea.
    Water temperature has a lot to do with what fish are 
present at any given time. And I think that is true, and you 
are indicating that is true. And if that is true, is it 
possible to identify the places where various species that may 
be threatened are located and avoid fishing in those areas at 
the appropriate time?
    Mr. Hayes. actually, I think our colleagues in the 
commercial community could tell you exactly where those are, 
and what those temperatures are, and at what depth they are, 
and I suspect, with a reasonable amount of research, that Gerry 
Scott could confirm them. I don't think that is an impossible 
exercise.
    Mr. Saxton. Anyone else want to comment?
    Okay, well, look, I am really sorry that we got started 
late because of votes. I am really sorry that we have another 
vote now, but that is kind of the way things happen here.
    I appreciate you all coming from various parts of the 
country, especially from New Jersey. I know there is a very 
interested and large delegation here from the New Jersey coast, 
and we appreciate all of you being here.
    And we will look forward to working with all of you on this 
subject as we move forward together. Thank you very much. The 
hearing is adjourned.
    [Whereupon, at 12:10 p.m., the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
